<html>
<title> - EVALUATING THE LABOR DEPARTMENT IN NEW ORLEANS: DOL'S PERFORMANCE IN INVESTIGATING AND PROSECUTING WAGE AND HOUR VIOLATIONS AND PROTECTING GUEST WORKERS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 EVALUATING THE LABOR DEPARTMENT IN NEW ORLEANS: DOL'S PERFORMANCE IN 
 INVESTIGATING AND PROSECUTING WAGE AND HOUR VIOLATIONS AND PROTECTING 
                             GUEST WORKERS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON DOMESTIC POLICY

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 29, 2007

                               __________

                           Serial No. 110-160

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

49-625 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 































              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

                    Subcommittee on Domestic Policy

                   DENNIS J. KUCINICH, Ohio, Chairman
TOM LANTOS, California               DARRELL E. ISSA, California
ELIJAH E. CUMMINGS, Maryland         DAN BURTON, Indiana
DIANE E. WATSON, California          CHRISTOPHER SHAYS, Connecticut
CHRISTOPHER S. MURPHY, Connecticut   JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
BRIAN HIGGINS, New York              BRIAN P. BILBRAY, California
BRUCE L. BRALEY, Iowa
                    Jaron R. Bourke, Staff Director




















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 29, 2007.................................     1
Statement of:
    Hicks, Barbara, Director, Wage and Hour Division, Employment 
      Standards Administration, Department of Labor District 
      Office, New Orleans, LA....................................    59
    Molina, Luz, clinical professor, Law Clinic and Center for 
      Social Justice, Loyola Law School; Jeffrey Steele, former 
      clean-up worker in New Orleans; Tyrone Wilson, former 
      clean-up worker in New Orleans; Alfred McQuirter, former 
      clean-up worker in New Orleans; Rodney Smith, former clean-
      up worker in New Orleans; and Jose Hernandez, former clean-
      up worker in New Orleans...................................    12
        Hernandez, Jose..........................................    36
        McQuirter, Alfred........................................    27
        Molina, Luz..............................................    12
        Smith, Rodney............................................    30
        Steele, Jeffrey..........................................    14
        Wilson, Tyrone...........................................    19
    Vijayan, Sabulal, guest worker; Maria Eugenia, guest worker; 
      Rolando Sanchez, guest worker; and Daniel Castellanos, 
      former guest worker and organizer with New Orleans Workers' 
      Center for Racial Justice..................................    50
        Castellanos, Daniel......................................    57
        Eugenia, Maria...........................................    56
        Sanchez, Rolando.........................................    56
        Vijayan, Sabulal.........................................    50
Letters, statements, etc., submitted for the record by:
    Hernandez, Jose, former clean-up worker in New Orleans, 
      prepared statement of......................................    38
    Hicks, Barbara, Director, Wage and Hour Division, Employment 
      Standards Administration, Department of Labor District 
      Office, New Orleans, LA, prepared statement of.............    64
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     5
    McQuirter, Alfred, former clean-up worker in New Orleans, 
      prepared statement of......................................    28
    Smith, Rodney, former clean-up worker in New Orleans, 
      prepared statement of......................................    31
    Steele, Jeffrey, former clean-up worker in New Orleans, 
      prepared statement of......................................    16
    Vijayan, Sabulal, guest worker, prepared statement of........    53
    Wilson, Tyrone, former clean-up worker in New Orleans, 
      prepared statement of......................................    21


 EVALUATING THE LABOR DEPARTMENT IN NEW ORLEANS: DOL'S PERFORMANCE IN 
 INVESTIGATING AND PROSECUTING WAGE AND HOUR VIOLATIONS AND PROTECTING 
                             GUEST WORKERS

                              ----------                              


                        MONDAY, OCTOBER 29, 2007

                  House of Representatives,
                   Subcommittee on Domestic Policy,
              Committee on Oversight and Government Reform,
                                                   New Orleans, LA.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 308, Loyola Law School, 526 Pine Street, New Orleans, LA, 
Hon. Dennis Kucinich (chairman of the subcommittee) presiding.
    Present: Representative Kucinich.
    Staff present: Jaron R. Bourke, staff director; Noura 
Erakat, counsel; Jean Gosa, clerk; and Chris Mertens, intern.
    Mr. Kucinich. The committee will come to order.
    Thank you very much to all of you for being here. Thank you 
and good morning, buenos dias. Thank you for all of you and 
your presence today. The Subcommittee on Domestic Policy of the 
Committee on Oversight and Government Reform is in order.
    Today's hearing will examine the Department of Labor's 
Performance in Investigating and Prosecuting Wage and Hour 
Violations and Protecting Guest Workers in New Orleans.
    I am Congressman Dennis Kucinich, Chairman of the 
committee. Our committee has very broad reach in all matters 
relating to regulatory reform and oversight of every area of 
the Federal Government except the Department of Defense and the 
Department of State. So in our capacity, we are here this 
morning to take testimony and hear from witnesses as part of 
our ongoing investigation and gathering of information.
    We are able to proceed this morning without the ranking 
Republican because we have the permission of the Republican 
staff and the ranking member to proceed. The Ranking Member 
Darrell Issa is from California and is in his district. And a 
good part of California, as you know, has been hit with another 
form of disaster--fire. So he is in his district tending to 
that. He has OKed us going forward without him and I want to 
acknowledge his cooperation in this and other matters that come 
before our committee; and thank him for his indulgence.
    Without objection, the Chair and the ranking minority 
member will have 5 minutes to make opening statements followed 
by opening statements not to exceed 3 minutes by any other 
Member who seeks recognition. And without objection, the 
Members and witnesses may have 5 legislative days to submit a 
written statement or extraneous materials for the record. And 
maybe we can have as witnesses the people involved in that 
wrestling match upstairs. [Laughter.]
    Do we know what that is about? In Washington, at this time, 
it would be people preparing to move out of their offices. 
[Laughter.]
    Good afternoon and welcome.
    This hearing continues an investigation that began earlier 
this year into the adequacy of labor law enforcement in New 
Orleans during the period following Hurricane Katrina.
    In the aftermath of Hurricane Katrina, President Bush 
issued a number of executive orders to suspend labor laws and 
documentation requirements. These included the suspension of 
the Davis-Bacon Act and the suspension of Affirmative Action 
requirements. The Bush administration suspended regular 
enforcement of Occupational Safety and Health Administration 
standards and Department of Homeland Security documentation 
requirements.
    At the same time, the Federal Government pumped billions of 
dollars of no-bid, cost-plus contracts into the Gulf Coast and 
into the hands of contractors. The need for urgent 
reconstruction and clean-up coupled with Federal funds 
attracted thousands of workers from within the United States 
and abroad.
    The conditions constituted a serious challenge to the 
Department of Labor in New Orleans. As Mr. Paul DeCamp said in 
his testimony, ``the final challenge is unlike anything WHD has 
experienced previously. The infusion of Federal assistance into 
the region and the need for an immediate response to the 
environmental conditions in the area resulted in multiple 
layers of contracting and blurred lines of employer 
accountability.'' As the Federal cop on the workplace safety, 
wages and hours beat, the Department of Labor would have to 
respond to the needs of a worker population unique to the Gulf 
Coast in an environment marked by a national catastrophe 
without precedent.
    The Department of Labor's Wage and Hour Division was 
responsible for investigating and prosecuting the labor law 
violations in the region. It appears that, with inadequate 
resources, the task was too daunting for the Department of 
Labor. In the absence of aggressive enforcement, crimes against 
workers increased. Meanwhile, the number of Department of Labor 
investigations into New Orlean's situation decreased. Consider 
that the number of investigations dropped from 70 in the year 
before Katrina to 44 in the 11 months after Katrina.
    Where was Sheriff Labor when workers needed her most?
    Mr. Jeffrey Steele was never paid for the hours he worked. 
He filed a complaint with DOL in September 2006. Nothing 
happened. Finally, 5 months later after making numerous 
inquiries, a DOL investigator contacted Mr. Steele. Another 
month and a half lapsed before an investigator called Mr. 
Steele to ask him for more information that, as an 
investigator, she should have found herself. Two months more 
lapsed before the investigator called Mr. Steele again. Not 
surprisingly, fearing bad publicity, this phone call came 6 
days before his testimony at the June 26th hearing. And now, 4 
months later, after receiving national media attention, Mr. 
Steele's case has still not progressed. Mr. Steele will testify 
today about his case's status. I ask, if Mr. Steele went to the 
DOL more than a year ago and his case received national media 
attention, and he has not been adequately served, then what can 
be said about similarly situated workers who have not received 
national attention or worse, who cannot even communicate with 
DOL?
    The stories of violations are abundant. We will hear a 
number of them today. We seek to understand what the DOL did 
well, what it did poorly and what it failed to do on behalf of 
workers in the aftermath of Hurricane Katrina. Now, more than 2 
years after Hurricane Katrina struck the Gulf Coast, we want to 
know what we can do to protect the workers who came to clean 
and rebuild the cities.
    We already know what some of the problems are. Part of the 
problem seems to be that DOL was too slow to adapt to the need 
and to respond to labor abuses against a new immigrant 
population. For instance, our investigation revealed that the 
New Orleans District Office took 1 year and 4 months after the 
hurricane to hire a Spanish-speaking investigator, bringing the 
total capacity to two.
    Nearly 2 years later, out of 12 investigators, only three 
are Spanish-speaking. At least for workers from Guatemala and 
Mexico, there is a chance of being helped. In contrast, workers 
from Brazil do not have much of a chance because they have not 
had a Portuguese-speaking investigator since last December.
    Part of the problem seems to reside in Washington, DC, in 
the Department of Labor office. After the hurricanes deprived 
hundreds of thousands of people of their homes, including most, 
if not all, of the staff and investigators of the New Orleans 
Department of Labor office, what supplemental support did the 
Washington office provide? Our inquiry reveals that Washington 
sent the first detailed employee to help, for a period of 2 
weeks, nearly 3 months after the hurricane.
    At our June 26th hearing, Mr. Paul DeCamp, Department of 
Labor Wage and Hour Administrator, explained that the District 
Office did not hire more staff because labor law violations in 
New Orleans constitute a ``temporary bubble, albeit a 
significant bubble in terms of violations and in terms of 
workload in the Gulf Coast and in New Orleans in particular,'' 
saying that will last for the next 2 to 5 years. I wonder what 
Mr. DeCamp thought would pop this bubble. The resolution of all 
labor law claims? The completion of clean-up and reconstruction 
in New Orleans? The expiration of the statute of limitations on 
claims that arose in the aftermath of the hurricane? We hope 
that Barbara Hicks of the Department of Labor can help us 
answer that question today.
    Part of the problem seems to be the administration of the 
law. Guest workers, who come to work in the United States on 
H2-B visas, are susceptible to other labor law violations as 
well. Oftentimes, after paying a fee for their visa, after 
paying for a plane ticket as well as a substantial fee to the 
labor broker who invited them to work in the United States, 
they arrive in the United States only to find that there is no 
work for them. In many cases, they are subjected to horrible 
living conditions, non-payment for overtime, and no payment at 
all. In the worst case, these guest workers have their 
passports and visas confiscated by employers, rendering them 
virtual slaves at the hands of someone who used legal means to 
import them into the United States.
    Take the case of Matt Redd, a New Orleans real estate 
mogul, and certified Department of Labor guest worker employer, 
``legally'' trafficked workers and rented those unfortunate 
migrant workers out to garbage collection companies and 
restaurants at an hourly wage. According to Mr. Saket Soni and 
Mr. Jacob Horowitz, the Alliance of Guest Workers for Dignity 
attempted their own citizens' arrest of Mr. Redd to retrieve 
their documents and subsequently protested in front of the 
Department of Labor office to pressure it to protect them. As 
of June 26th, the Department of Labor had done nothing on 
behalf of those guest workers. Today, a number of them will 
testify.
    The Department of Labor claims that it has little or no 
authority to act on behalf of the H2-B visa holders. This is 
only partially true. Unlike statutes protecting agricultural 
guest workers, or H2-A visa holders, no similar regulations 
exist to protect non-agricultural guest workers. At present, 
the Department of Labor is drafting new H2-B regulations. This 
marks a significant opportunity for the Department of Labor to 
serve non-agricultural guest worker populations; populations 
that are working to rebuild one of our most beloved cities, New 
Orleans. I encourage the Department of Labor to use this 
opportunity to provide more protection, and not less, to the 
H2-B vis workers.
    It is important to remember that, irrespective of the 
minimal statutory protections, the Department of Labor WHD 
still has the authority and the responsibility to prosecute 
employers for violations of the Federal Labor Standards Act and 
the Davis-Bacon Act, even when the victims are H2-B holders.
    The interplay of labor law suspensions, an influx of 
workers, huge numbers of contractors, and non-enforcement of 
labor law created an environment, according to some of our 
witnesses, of virtual lawlessness in New Orleans, with respect 
to enforcement of labor law--an environment they have describe 
to us as the ``wild, wild west.''
    Today, I hope that as we continue our inquiry, we can 
better understand why and how this occurred; and that we can 
take a path that can bring justice to those people who have 
worked hard to try to rebuild New Orleans, but are not getting 
paid, cannot get the government to go on their behalf to get 
paid. This subcommittee, will and is intervening on behalf of 
those workers, whatever their origin, to make sure that 
economic justice is done and to continue to see the efforts for 
rebuilding New Orleans continue with people feeling that when 
they put to work in, they are going to get paid for it.
    So with that, we are going to move ahead to the witnesses, 
and I would like to make a brief introduction of the witnesses 
before we proceed.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Kucinich. First of all, Professor Luz Molina. Professor 
Molina is the clinical professor at the Law Clinic and Center 
for Social Justice at Loyola Law School. Professor Molina has 
spent much of her career working with poverty-stricken 
individuals in the areas of domestic law, immigration law and 
children's proceedings. She works with student practitioners in 
a labor and employment law practice as part of her Workplace 
Justice Project.
    I am going to introduce everyone now and then I will ask 
you to all stand and I will swear you in jointly and then 
Professor Molina will begin.
    Mr. Jeffrey Steele is a former clean-up worker in New 
Orleans. He has filed a claim with the Department of Labor. The 
claim is now becoming quite famous and it still has not been 
resolved.
    Mr. Tyrone Wilson is a former clean-up worker in New 
Orleans. He too has filed a claim with the Department of Labor 
that has not been resolved.
    Mr. Alfred McQuirter is a former clean-up worker in New 
Orleans.
    Mr. Rodney Smith, a former clean-up worker in New Orleans.
    Mr. Victor Hernandez works in New Orleans and has witnessed 
numerous labor law violations and has experienced many himself.
    I want to thank all of you for appearing before our 
subcommittee today. It is the policy of the Committee on 
Oversight and Government Reform to swear in all witnesses 
before they testify. I would ask that you rise right now each 
of you, and all the witnesses, would you please raise your 
right hands.
    [Witnesses sworn.]
    Mr. Kucinich. Let the record reflect that all of the 
witnesses answered in the affirmative. You may be seated.
    I would ask Professor Molina to come to the podium for the 
purpose of making her statement. I want to thank you for being 
here and the committee appreciates your leadership in this and 
you may proceed.

 STATEMENTS OF LUZ MOLINA, CLINICAL PROFESSOR, LAW CLINIC AND 
 CENTER FOR SOCIAL JUSTICE, LOYOLA LAW SCHOOL; JEFFREY STEELE, 
 FORMER CLEAN-UP WORKER IN NEW ORLEANS; TYRONE WILSON, FORMER 
CLEAN-UP WORKER IN NEW ORLEANS; ALFRED MCQUIRTER, FORMER CLEAN-
UP WORKER IN NEW ORLEANS; RODNEY SMITH, FORMER CLEAN-UP WORKER 
 IN NEW ORLEANS; AND JOSE HERNANDEZ, FORMER CLEAN-UP WORKER IN 
                          NEW ORLEANS

                    STATEMENT OF LUZ MOLINA

    Ms. Molina. Good morning, Congressman. I appreciate the 
invitation to speak to this issue. It is an issue that has been 
of great concern to us in the area. It is one that we are not 
used to and certainly after Katrina, we were unprepared 
woefully to address some of the issues that occurred in the 
labor area.
    In particular, immediately after Katrina, we realized----
    Mr. Kucinich. Is that mic OK for you?
    Ms. Molina. Yeah, I just need to pull it out or else I need 
to bend too much.
    Mr. Kucinich. Take your time. I wanted to mention to the 
witnesses, each person will have 5 minutes to make their 
statement. If your statement requires that you need more than 5 
minutes, I can assure you it will be put in the record of the 
hearing. So, Jean, will you help us keep track of time and will 
you let people know when they have a minute to go? OK? Thanks.
    Please proceed. Thank you.
    Ms. Molina. I just want to make a brief statement and try 
to clarify the overall landscape of the labor issues in New 
Orleans. In particular, I think we have had three different 
labor issues after Katrina:
    The first one was certainly related to some of the problems 
created by Katrina itself--new roof replacements, the park, the 
FEMA trailers and the debris removal. And all of those moneys 
came from Federal contracts.
    The second wave of workers attracted to the Gulf had to do 
with the reconstruction of private residences and private 
buildings and had to do much with private insurance money.
    I think we are entering a third period of attraction of 
labor to the city, related to the Road Home moneys that are 
going to be soon disbursed and are being disbursed as we speak.
    I think the problem has to do with the lack of a 
significant presence in the area, for whatever reason, of the 
Department of Labor, in terms of investigations. I do not think 
New Orleans had ever seen the kind of violations that we saw 
right after Katrina. And in terms of those violations, it is 
not the kind of situation where you can just sit down and wait 
for the workers to come to you. A lot of the groups that do 
this kind of work, in particular, the Southern Poverty Law 
Center, I think understood immediately what the impact would be 
in the area, especially in the Gulf. And they deployed their 
workers to try to pick out these individuals who were not being 
paid and abused by the workers in the area, to try to make 
sense of what was happening right after the hurricanes, so this 
would have been in the fall of 2005.
    If you do not have a plan in place, this is absolutely 
possible. If there is no understanding that as part of greater 
disaster response, there has to be a labor response, then there 
is a problem. I think the lesson to be learned here is that 
FEMA and the DOL have to be part of the immediate response. DOL 
has to have emergency response, because there is no way to put 
together the kind of investigations that are going to be 
necessary when this kind of influx of labor comes into a 
particular area.
    I would like to answer whatever questions, Congressman, you 
have, regarding this issue. I have a lot of experiences as I 
have tried to respond in a small way with my students to these 
particular issues. But I can tell you, it has been very 
difficult because a lot of the response has to be legal and 
there are not many resources in that area in the city.
    Mr. Kucinich. I thank you very much, Professor Molina, for 
your testimony. We will have followup questions of you.
    I am going to now ask Mr. Steele to come forward. And I 
would ask, Professor, if you would like to have a seat right 
there, that would be fine. And then once we get to the 
questions, we will ask people to come to the mic and we will 
question them.
    Just in the interest of facilitating this, if the gentleman 
would like to put the wireless on him, that should not be a 
problem. I think it is important that his testimony be heard by 
the community.

                  STATEMENT OF JEFFREY STEELE

    Mr. Steele. Good morning, Congressman.
    Mr. Kucinich. I want to thank you for being here.
    Mr. Steele. My name is Jeffrey Steele, again. I testified 
before the subcommittee on June 26th of this past year.
    I currently live in Montgomery, Alabama. Before Katrina, I 
worked in Atlanta, I ran several shelters in Atlanta. I met a 
lot of displaced people from New Orleans. So I wanted to be 
part of history, so I came to New Orleans to kind of do the 
right thing by helping people because I could not understand 
why we, as America, would sit there and let our folks sit there 
and flood out and get hurt.
    I testified in June that I came out with Pastor Braddy and 
I worked in New Orleans. He promised free room and board and 
$10 an hour. We left Atlanta October 16, 2005 in a small van 
with others who had been recruited by Braddy. We arrived in New 
Orleans the next morning. We were put straight to work with 
nothing to eat since we had left Atlanta. We slept that night 
in the same van that we came down in.
    Until September 2006, I worked in New Orleans for several 
different subcontractors doing clean-up work--Workforce 
Development, Phoenix Global, Copeland Construction; Xpress 
Staff, JNE. They were connected to Omni Pinnacle, Waste 
Management, ECC.
    The work in New Orleans was very hard and dangerous. Day 
and night, we worked long and hot. We had no health insurance, 
no workmen's compensation or other benefits. We worked 16 to 18 
hours a day for 7 days a week.
    I lived with 40 to 60 other guys in a small house when I 
was not crammed into small, dirty apartments. We had very 
little to eat. We had to eat relief handouts or MREs. Most of 
the time we were starving.
    None of those companies paid correctly for the work that we 
did. The pay was always late and every paycheck was short. 
There was never no overtime payment. And the companies took 
deductions out for housing, food and transportation. For the 
first 3 months I worked in New Orleans, I received $2,000 
instead of the $17,000 I had earned--no overtime.
    I tried to get back what was owed to me by talking with 
people from the Law Clinic. They sent my case to the Department 
of Labor. When I had not heard anything for a long time, I 
called the DOL directly in February 2007. I was asked if I had 
any information from my previous employers. I gave whatever 
information I had.
    The DOL called me back and said they would file my claim. 
When I called them back a month later to find out what was 
happening, the woman said when she found out something she 
would let me know.
    I did not hear anything back from the DOL until right 
before the subcommittee hearing in June 2007. The DOL 
supervisor called me and immediately began to interrogate me. 
She ended the call by saying she wanted me to call her when I 
had more information. She treated me as if I was the bad guy. 
And then again, I only heard from these people somewhere in 
June--I mean in August 2007, 2 months after I came back from 
Washington, DC, briefly asking me the same thing, do I have any 
information. I gave them Coach's number and I said I had other 
people's numbers that I could give them when I got down here. 
But they since then have not called.
    Then one of the companies, the JNE Construction Co., is 
still sitting here doing business in New Orleans, working for 
the Mayor directly.
    I told Barbara Hicks--wherever she is at--I told the lady 
that was working for her exactly where these people was at, 
gave them all the information and these people have yet to call 
me back to say where is my money.
    Mr. Kucinich. Thank you very much, Mr. Steele.
    We have Mr. Wilson. I would like to invite you to come up.
    OK, Mr. Wilson, you may proceed, sir.
    [The prepared statement of Mr. Steele follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                   STATEMENT OF TYRONE WILSON

    Mr. Wilson. Good morning.
    Mr. Kucinich. Good morning.
    Mr. Wilson. My name is Tyrone Wilson. I live in New 
Orleans. Before Katrina, I had been working for Orleans Parish 
school system as a bus monitor. I also worked as a substitute 
teacher and did volunteer work with the youth of New Orleans 
with the New Orleans Recreation Department.
    The new school year had just begun before Katrina hit in 
2005. I evacuated to Dallas the Saturday night before the 
storm. Like everyone else, I found out what had happened by 
watching the news. I came back about 2 weeks later and saw the 
devastation of our city. I finally moved back with my niece in 
La Place, Louisiana and found out we had all been fired by the 
Orleans Parish school system.
    A friend of mine told me about Phoenix and Global. I went 
to work for them. I had worked for them for 2 weeks straight 
and had not gotten paid. I got the name of Brian Carter, the 
head of Phoenix and Global, and spoke to him on the phone. I 
had other workers standing there around me along with a 
supervisor from ECC. Carter said that ECC had never paid them 
and that is why he could not pay us. The man from ECC took the 
phone and told Carter that was not true, ECC had paid them.
    When I got back on the phone with Mr. Carter, he was angry 
with me. But I told him that I had been working 7 days a week, 
12 hours a day and that was not right for them not to pay us. I 
told him a lot of other guys had come from Atlanta, like Mr. 
Steele, and other parts of the country to come help clean up. I 
told him he was wrong for not paying any of us.
    Carter met us later and paid some of us. I got around $900, 
which was much less than he had owed me. He said he had to take 
money out of our checks for taxes. I had worked 3 to 4 weeks 
straight, 12 hours a day, 7 days a week. But if I had not taken 
the money that he was giving us, I would not have gotten 
anything.
    We were later told that JNE was going to take over. I 
worked from October until Christmas 2005 and got a check for 
$140. The second check I got, we were told we could not cash 
until after New Years. Neither of these checks were right and 
we had no money for Christmas.
    I continued to work through February for JNE. I was not 
paid for several weeks at a time though. We were doing the 
clean up and debris work as well as the white goods, the 
refrigerators--smelly, stinking. We would go home, this is how 
it was. When we did get paid, it was never the right amount and 
I never got any overtime pay.
    One day when about 30 of us had not been paid, I went with 
Mr. Steele and another man to the World Trade Center in New 
Orleans where JNE had an office. Well, it was not really JNE, 
it was ECC's office, which was the contractor. We went to ECC 
first and found out that JNE was a subcontractor of Hamp 
Construction. While we were in the building, we spoke to Mr. 
Hamp--I spoke to Mr. Hamp directly on the phone. And I told him 
people were not getting paid. He told me for us to write up all 
the days that we had worked. They found some money to pay us 
and that was the last check we got from JNE.
    I then worked for EENG, a company that oversaw the clean-up 
work with the city. I worked as an ineligible waste inspector 
and inspected debris for asbestos and other hazardous material. 
They were still hiring people.
    Sometime after May 2006, Mr. Steele and I spoke to people 
at the Loyola Clinic. They later told me that they had filed my 
case with the Department of Labor. It was not until around the 
time Jeffrey testified in June 2007 in Washington that I got a 
call from the Department of Labor. I sent them check stubs and 
other information.
    Mr. Kucinich. You can complete your statement and we will 
put the rest in the record.
    Mr. Wilson. I have not heard back from them yet.
    I still see some those contractors here in New Orleans 
operating their business and making money. Something needs to 
be done about them making millions and millions of dollars 
while the people actually doing the work cannot get paid what 
they rightfully earned. Something has to be done and it should 
be done.
    Mr. Kucinich. I thank the gentleman.
    Mr. McQuirter, you may proceed. You have 5 minutes and if 
you do not complete it in 5 minutes, the rest of your testimony 
will be put in the record. Thank you, sir, please proceed.
    [The prepared statement of Mr. Wilson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                 STATEMENT OF ALFRED MCQUIRTER

    Mr. McQuirter. My name is Alfred McQuirter. I came down 
here from Atlanta around October 2005 after Hurricane Katrina. 
I had ran a parking lot in Atlanta right before the storm and 
came down here to work because of the promise of big money. 
Rev. Harrison Braddy promised us $25 an hour, but that kind of 
money was just a pipe dream.
    After working for Braddy for a couple of months, I ended up 
working for Mike Noble who ran Fast Track. He later changed the 
name to Xpress Staff. Fast Track was a subcontractor for Waste 
Management.
    I worked during the hurricane clean-up as a garbage man. I 
picked up debris and worked on the dump trucks. Braddy had 
gotten us down here to New Orleans under false pretenses. He 
lied and said we would not have to pay rent and he would put us 
up in a house. Well, he did put us up in a house, but he 
charged rent. At first, it was around $70 a week, but at times, 
we paid up to $280 a week. Mike Noble took over after a couple 
of months and said he would change things, but did not.
    Under Mike Noble, for the first couple of months, I was 
paid around $100 a week. If one guy got sick and could not 
work, Noble would take out some money from the rest of us guys' 
paychecks and said a mistake had been made in Tennessee. He 
would postpone and postpone paying us and then give us about 
$25 just for food. But all the paychecks kept coming up short.
    There was nothing left over after getting food. And there 
was never any overtime pay, although Noble claimed overtime was 
added in. We had filled out tax forms and Noble was supposed to 
take money out for the taxes. I never got any tax forms back 
from the government. I worked an average of 60 to 80 hours a 
week. I kept working for Noble until around July 2006.
    I did not know anything about the Department of Labor or 
did not know the Department of Labor or anyone could help get 
us our money back.
    Thank you.
    Mr. Kucinich. Thank you very much, Mr. McQuirter.
    We are going to ask Mr. Smith, and I thank you very much, 
sir, for your presence here today. You may proceed.
    [The prepared statement of Mr. McQuirter follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                   STATEMENT OF RODNEY SMITH

    Mr. Smith. To the respected committee, my name is Rodney 
Smith. Before Katrina, I was living in Memphis where I was born 
and raised. I was recruited to work in New Orleans through a 
friend who was working for a temporary service that was owned 
by Mike Noble. I came down around the first of November 2005 
following behind the van.
    When I got here, I was promised, you know, to have good 
housing, you know, food, everything would be taken care of. I 
worked for Fast Track which later became Xpress Staff. I worked 
hopping garbage trucks, picking up garbage and debris. Fast 
Track Xpress was a subcontractor for Waste Management. I worked 
in the beginning on the west bank.
    The smell from the garbage was always nasty and the work 
was dangerous because of the cars speeding around the trucks 
while we crossed the street to pick up the garbage cans.
    I worked 40 to 50 hours a week, 6 days a week. Sometimes I 
worked from 5 a.m., to 10 p.m. A lot of times when we would 
finish up our route, we would have to go and pick up another 
person's route that had not finished.
    My paychecks should have been around $500-$600 a week not 
including overtime, but I usually got around $300 a week. I did 
not understand how I would get different amounts of pay when my 
pay stubs said that I had worked the same number of hours. That 
happened a lot.
    My checks never added up. And I had to pay $60 to $100 a 
week in rent plus $25 a week for transportation to and from the 
job in the company van. Mike Noble always promised to make 
adjustments in our pay, but when we would come back a few days 
later, he would say there was still another problem that had to 
be worked out. And things would never get worked out.
    I did not know nothing about the Federal Government could 
get the money I should have been paid. I did not think there 
was any way to get my money back.
    But thanks to you all, I believe I will be able to get it 
back some kind of way.
    Thank you all.
    Mr. Kucinich. I appreciate it, sir.
    Mr. Victor Hernandez. Mr. Hernandez, we want to thank you 
for being here.
    [The prepared statement of Mr. Smith follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
               STATEMENT OF JOSE VICTOR HERNANDEZ

    Mr. Hernandez. Thank you and good morning. I would like 
somebody to help me because I cannot speak English very well.
    Mr. Kucinich. No problem. We have a translator here. I 
would ask the translator, would you mind being sworn?
    Mr. Horowitz. Sure.
    [Translator sworn.]
    Mr. Kucinich. State your name for the record, Translator.
    Mr. Horowitz. Jacob Horowitz.
    Mr. Kucinich. Mr. Horowitz, thank you for your assistance 
here.
    Mr. Horowitz. No problem.
    Mr. Hernandez. [Through translator] Good afternoon and 
thank you very much for having me. My name is Jose Hernandez 
and I am from El Salvador.
    Mr. Kucinich. Excuse me. Is it Jose or Victor.
    Mr. Hernandez. Jose Victor Hernandez.
    Mr. Kucinich. OK, OK, Jose Victor Hernandez. Thank you. 
Please proceed.
    Mr. Hernandez. I am 31 years old and I came to the United 
States the first time. The reasons I came to this country were 
to look for--to try and get ahead economically, which almost 
cost me my life coming here. I left my wife who was expecting a 
child, but I had to be brave, and with tears in my eyes, I came 
here, I left her. So many of my friends had told me that this 
is a good place to come work and make money. I decided to come 
to New Orleans because here is where there is work after the 
tragedy that we all know of.
    It took about 2 weeks for me to find my first job. And I 
have to tell you that the language barrier is very difficult to 
overcome. What everyone always asked me was if I had a social 
security number, which I do not have because I am undocumented. 
When I finally found somebody who was willing to hire me, he 
said the only way he could pay me was under the table. And so I 
accepted that and he told me that I did not have to worry about 
reporting taxes. The work was to clean up trash in the city. We 
worked 10 hrs a day, including Sundays. The first week I did 
not receive any pay because they held the first week's pay and 
they told me that was the law. The next week when I received my 
paycheck, it was not complete. When I tried to talk to my boss 
about that, he just said that he did not understand what I was 
trying to tell him. And when he finally did understand me, he 
said he would just have to look over his notes and find the 
error. And he said that if there was a difference in the money, 
he would recompensate me. But that never happened. I thought 
about quitting, as some of my friends did. But they never were 
paid that week that the boss retained for the first week. So I 
continued my work in this company but I had the same problem in 
each paycheck. Sometimes the difference was not so big, but at 
other times, it was as much as $200.
    With my dedication to the job, I learned how to do some of 
the heavy machinery. Sometimes the work was very difficult and 
I had to----
    Mr. Kucinich. If you could wind it up right now. If you 
want to add anything else.
    Mr. Horowitz. He wants to say that 5 minutes is not enough 
time to talk about all of it.
    Mr. Kucinich. I would imagine. What we will do, if you 
would let Mr. Hernandez know that his entire statement will be 
included in the record. Whatever is in writing will be 
included.
    We are going to go into a question period and he will be 
able to answer some more when we come back. We will come back 
to you in questions.
    Mr. Hernandez. OK, thank you.
    Mr. Horowitz. I do not know if it is possible to request a 
little more time for the Spanish because they are getting half 
of their time when we----
    Mr. Kucinich. You know what, proceed. Go ahead, yes. We 
just did. [Laughter.]
    Mr. Hernandez. To clarify what may be the most important 
point, the work was too hard and the money was never what was 
promised. Some days we worked as many as 12 hours but were only 
paid for 10. There are still a lot of people working in the 
company that do not have any kind of documents. And they have 
no idea what to do every time their paycheck is wrong.
    Thanks to institutions such as the Worker Center, we feel 
that we have some support on the job. Some of us are receiving 
English classes and we are getting help. And we are starting to 
learn what we can do when we have this kind of problem.
    Thank you.
    [The prepared statement of Mr. Hernandez follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. We are going to be asking each of the 
witnesses to be available for questions.
    We would like to start with Professor Molina, if you could 
step to the podium.
    Professor Molina, it is up to you, it is up to any of the 
witnesses if they want to be mic'd or not.
    Ms. Molina. Is this for the community?
    Mr. Kucinich. Yes.
    Ms. Molina. Yes. It is important for them.
    Mr. Kucinich. Professor Molina, thank you again for being 
here.
    Your Law Clinic serves and attracts many workers whose 
rights have been violated, including immigrant workers.
    Ms. Molina. Yes.
    Mr. Kucinich. How many cases of wage theft are you 
investigating which you need assistance of the Department of 
Labor to prosecute?
    Ms. Molina. Well, that is hard to say. I will tell you that 
currently we have, for example a group of 12 workers that also 
are part of a larger group of 45 workers that are having labor 
problems with a particular employer. And I think part of the 
problem here in figuring out who is responsible for some of 
these wage claims is the whole issue of whether the Fair Labor 
Standards Act applies. And I think that is where the most labor 
intensive part of the work really is.
    Not every employment situation is subject to the Fair Labor 
Standards Act. And as you might know. Louisiana does not have a 
minimum wage and it is an at-will state. So what has to happen 
initially is once you get the lay of the land on the labor 
violations, is an aggressive approach to accessing all these 
employers so you can tell which ones are eligible--who are 
subject to the Fair Labor Standards Act. So for those 47 
workers, it is likely that they are going to be a Fair Labor 
Standards Act case.
    We have other cases that are exclusively under the 
jurisdiction of the Department of Labor, especially the ones 
that had the jobs as part of some Federal money. That would be 
the blue tarp work, the debris removal and the FEMA 
installation and maintenance. All of those would be Fair Labor 
Standards Act.
    Mr. Kucinich. Has anyone from the Department of Labor 
contacted you about collaborating on workers' claims to date?
    Ms. Molina. They did initially. I think that I presented 
some of those comments to the first congressional hearing in 
Washington in writing. Some of those hearings called for 
comments about the collaboration, but this happened, must have 
been March 2006. They were very concerned about what was going 
on in New Orleans and they approached us to see where the 
groups of workers were congregating, so that they could have 
access to those workers. But that was a limited engagement.
    Mr. Kucinich. Have they contacted you since the June 2007 
hearing?
    Ms. Molina. Not formally, no.
    Mr. Kucinich. In any way, have they contacted you?
    Mr. Kucinich. No, I happened to see Barbara Hicks last week 
and we chatted for a minute and we talked about some 
collaborative efforts. I also saw one of their new 
investigators on Thursday. We have created a Thursday clinic 
for workers at the Worker Resource Center. And we are hoping to 
attract workers with wage claims to that time slot because it 
is after work. We thought that would give them more access. And 
the Department of Labor has sent someone there.
    Mr. Kucinich. Could they have been better prepared to 
respond to this challenge?
    Ms. Molina. Well, obviously yes. I mean nobody was really 
prepared to respond to this. But I think the Department of 
Labor would have had to have had better knowledge about what 
happened after a disaster like this. I do not think that this 
is the first time that they were presented with this kind of 
situation. I think nationally the Department of Labor has to 
have a concrete plan to deal with these issues and I do not 
think there was such a plan.
    Mr. Kucinich. You know, I am struck by the fact that we 
have people that are still not paid, which suggests ongoing 
violations. The question is, do you have any knowledge that any 
of these contractors at this time are repeating the same kind 
of violations that we see expressed here? Are there any 
complaints that they are doing that, is there any indication 
that we may be seeing contractors proceeding at this very 
moment, taking advantage of workers? Or is this something that 
we are looking at as forensics on some past violations?
    Ms. Molina. No, obviously not. I think there are terrible 
violations every single day.
    One of the big challenges post-Katrina has been to identify 
and pursue particular employers because it is not a static 
employer group. You have individuals taking advantage of the 
situation in this area and so you have situations where a lot 
of employers are coming from other states. One of the 
challenges that we have faced I know has been identifying an 
address, a contact place for these employers so that they can 
be challenged about their wage violations. And as I said, it is 
incredibly labor intensive, it requires a lot of investigators 
to participate in that kind of work. And to my knowledge, I 
know that the Department of Labor does not have a work force of 
that size locally.
    Mr. Kucinich. Thank you very much, Professor.
    Ms. Molina. Thank you, Congressman. I hope something can 
come from this.
    Mr. Kucinich. That is why we are doing this. Thank you.
    I would like to ask Mr. Steele to come forward.
    One of the issues that arises is identifying the 
subcontractors. I want to ask Mr. Steele, did you testify that 
you have identified the employer who stole your wages?
    Mr. Steele. Several times. I talk with Luz and Teresa on 
this several times. And when the lady, Ms. Hicks, called and 
she was interrogating--seemed to be interrogating me about what 
happened here, I told her I was in my right mind and what a lot 
of folks do not know, I had somebody else--I was on a landline 
phone talking and then I had my cellphone on and I was talking 
to another party in Washington, DC, about what was going on. 
And then I told her, I said listen to this conversation. She 
heard the lady saying--she heard the lady like interrogating 
me. And then it came back to Luz that I was not cooperating.
    Mr. Kucinich. Let me ask you this, who was that employer, 
for the record?
    Mr. Steele. That is it, which one?
    Mr. Kucinich. Which employer are we talking about that 
stole your wage?
    Mr. Steele. J&N Contractors, which I have found out since I 
have been here, it is located three blocks away from here.
    Mr. Kucinich. So you shared that information with the 
Department of Labor?
    Mr. Steele. Several times.
    Mr. Kucinich. And you called the Department of Labor, you 
shared it on the phone----
    Mr. Steele. I shared all the information that I had with 
me. I live in Montgomery, they called me in Montgomery and I 
told her, I said J&N is here in New Orleans working now. And a 
friend of mine who I helped get on, I helped Coach get on with 
the company that took our money and another friend of mine. She 
just shared with me the other day that J&N is three blocks away 
from here, from this school, right at this moment. He has a 
building up the street and these people from the DOL claim they 
cannot find this guy. They have not said nothing about finding 
him, talking with him about my wages or nothing.
    Mr. Kucinich. So you still do not have your money.
    Mr. Steele. I have not seen a penny, I have not heard from 
these folks.
    Mr. Kucinich. How long has it been?
    Mr. Steele. Since June, July, August, I heard maybe 
somewhere in August from Barbara Hicks from the Department of 
Labor, with the same thing, like I told you in June, they 
asking me about where these folks at. I am telling them I do 
not have access to a computer.
    Mr. Kucinich. How much do they owe you?
    Mr. Steele. With interest, it is probably about 30-35.
    Mr. Kucinich. Thirty?
    Mr. Steele. $30,000, $35,000 by now. I'm missing a total of 
seven or eight checks with 99 hours with all overtime.
    Mr. Kucinich. You know, if somebody is missing $30-$35,000, 
that can play havoc with their life. What has it done to you?
    Mr. Steele. I have been catching pure hell. I need that 
money now. You know, I am having to have surgery on my hand. My 
lights have been cutoff, my gas, my water. I have just been 
going through hell this year, pure hell. And I am tired of it. 
And I lost my cellphone messing with the people from the DOL. 
You know, they ran my bill up playing games, calling and 
calling and want to talk. Now I have AT&T trying to sue me for 
a damn thousand dollars right now, $1300. I do not have that 
kind of money to get my phone back on. And I would like to have 
my money before I leave New Orleans today. Because I want to 
set fire to something.
    Mr. Kucinich. Mr. McQuirter, could you come up?
    Mr. McQuirter, you have stated that you know the identity 
of the subcontractor.
    Mr. McQuirter. Yes.
    Mr. Kucinich. Who is the subcontractor?
    Mr. McQuirter. Mike Noble. Originally it was----
    Mr. Kucinich. Colonel Mike? Last name?
    Mr. McQuirter. Noble, N-o-b-l-e, I think.
    Mr. Kucinich. OK. And you worked for the prime contractor, 
right?
    Mr. McQuirter. Right.
    Mr. Kucinich. And what was the name of the prime 
contractor?
    Mr. McQuirter. Waste Management.
    Mr. Kucinich. Waste Management, OK. And you started 
experiencing the theft of your wages almost right away, is that 
right?
    Mr. McQuirter. Right away, right with the first check.
    Mr. Kucinich. Describe for us how that happened. OK, you 
worked a week and then you were expecting to get paid and you 
worked 2 weeks and expected to get paid and then you did not 
get paid. How did it work?
    Mr. McQuirter. OK, we worked the first week an enormous 
amount of hours, I think it was like 80 hours that week.
    Mr. Kucinich. You worked 80 hours.
    Mr. McQuirter. For the first week. So we expected a nice 
check. And Mike came up and said that something had happened in 
Tennessee, that is where the checks originate from, Tennessee. 
The time was sent to Tennessee and they print the checks and 
send them back here. And he said something had happened in 
Tennessee that the time had came up short. So like we only got 
like maybe half the money that we should have gotten, something 
like $200-300.
    Mr. Kucinich. So you worked 80, you got paid for 40, is 
that what you are saying?
    Mr. McQuirter. Something like that, yes.
    Mr. Kucinich. Now what month and what year would that have 
been?
    Mr. McQuirter. 2005. Right after that----
    Mr. Kucinich. What month was that?
    Mr. McQuirter. October.
    Mr. Kucinich. OK, so we are talking about 2 years.
    Mr. McQuirter. Yes.
    Mr. Kucinich. How much money are you owed?
    Mr. McQuirter. I would say around $12,000 or $13,000.
    Mr. Kucinich. And you are owed that money from whom?
    Mr. McQuirter. Mike Noble.
    Mr. Kucinich. Mike Noble. And have you heard from Mr. 
Noble?
    Mr. McQuirter. No.
    Mr. Kucinich. What has that done to you, being short $12-
13,000?
    Mr. McQuirter. Made life kind of miserable, you know. It 
put me in a position where I had to take any type of job 
really, to try to make ends meet.
    Mr. Kucinich. You worked 80 hours a week for how long?
    Mr. McQuirter. I would say for the first month we worked 80 
and then it varied from 60 to 80.
    Mr. Kucinich. How was it that you were able to go so long 
without getting paid? I mean what did you say to Mr. Noble?
    Mr. McQuirter. Well, seemed like he would not completely 
shut us off, he would like give us maybe just eating money and 
say that, you know, when Tennessee makes the mistake, they are 
going to pay us. But that never happened. Another week would go 
by and he would give us maybe $300 for what we should have been 
getting $600-700.
    Mr. Kucinich. So he kept leading you on.
    Mr. McQuirter. Yeah, yeah. But we had to continue to work. 
I mean we could not just sit there and not accept something, 
you know.
    Mr. Kucinich. So he caused you to believe that you would be 
paid.
    Mr. McQuirter. Yes.
    Mr. Kucinich. And you kept working, relying on what he 
said.
    Mr. McQuirter. Right.
    Mr. Kucinich. But the amount of money that he owed you kept 
piling up.
    Mr. McQuirter. Kept piling up, yeah.
    Mr. Kucinich. Now did you talk to him directly about this?
    Mr. McQuirter. Whenever we could. Like when he would come 
to town, you know, it was hard to get to him, he had his 
henchmen call around.
    Mr. Kucinich. Was it somebody that worked for Mr. Noble 
that you talked to?
    Mr. McQuirter. Well, he had a second in command.
    Mr. Kucinich. What was that person's name, do you remember?
    Mr. McQuirter. Linda Capri.
    Mr. Kucinich. What was it again?
    Mr. McQuirter. Linda Capri.
    Mr. Kucinich. Linda Capri, is that C-a-p-r-i?
    Mr. McQuirter. Yes.
    Mr. Kucinich. And Linda Capri, would you tell Linda Capri 
that you had not been paid and where is your money?
    Mr. McQuirter. Yes.
    Mr. Kucinich. And what did Linda Capri tell you?
    Mr. McQuirter. She would say the same thing, it was a 
mistake in Tennessee.
    Mr. Kucinich. In Tennessee.
    Mr. McQuirter. Or she would say like--OK, like each week, 
they would send her so many checks that she could write, she 
could write out personally herself, you know. If somebody come 
up with a complaint where they did not get their money, she 
could write out a personal check. But she would always tell us 
that she ran out of checks or the checks did not come in.
    Mr. Kucinich. OK, excuse me, Mr. Steele. I wanted to ask 
Mr. McQuirter, do you have anything else to say about this 
before we call Mr. Smith?
    Mr. McQuirter. No.
    Mr. Kucinich. I thank you. Now Mr. Steele, is there 
anything else you wanted to add?
    Mr. Steele. Well, I was going to tell you, I was a 
supervisor for----
    Mr. Kucinich. Let us wait--Mr. Smith, come on back up here.
    Mr. Steele. I was a supervisor for Xpress Staff. Dad lived 
in one of the houses when I ran one of the houses when I was 
working for Mike Noble. And the thing was that they would start 
sending checks down when Memphis was making a mistake. All the 
black workers was being shut out without being paid properly 
but Linda is like bilingual, she took care of all the Mexican 
workers when their checks was messed up. She wrote their checks 
out but the black guys had to go through a little hell to get 
their money. I was still with Mike, I was there 1 day when Dad 
came in and said my check is wrong, you owe me for such and 
such hours. And I was talking to Mike on a walkie-talkie and I 
told him that I have some people that is mad about not getting 
paid, about not getting paid correctly. He stated, and then Dad 
shouted out and said, ``They sitting there writing checks for 
themselves.'' And Mike asked me who is writing checks. And I 
said ``well, Mike, I just have walked into the office, Dad is 
telling me that this lady had wrote her husband a check out 
instead of paying the workers off and then they closed to 
office up on us.''
    Mr. Kucinich. So it is your belief that some of this 
unwillingness to pay, that there was a racial dimension to it, 
kind of discrimination going on. In addition to not being paid, 
you were being discriminated against racially, because some 
other people were getting money.
    Mr. Steele. That is right.
    Mr. Kucinich. OK.
    Mr. Steele. Then again, you have people like this who, you 
know, you are going to have Internal Revenue going after guys 
like Dad and Rodney and me because these people saying that 
they paid us and we have not received anything.
    Mr. Kucinich. OK, I thank you. Mr. Smith, you want to come 
up.
    Mr. Smith, do you know the identity of the subcontractor?
    Mr. Smith. Yes, I do, sir.
    Mr. Kucinich. What is the name of the subcontractor, 
please?
    Mr. Smith. Mike Noble.
    Mr. Kucinich. Mike Noble. And you worked for the prime 
contractor?
    Mr. Smith. Yes, sir.
    Mr. Kucinich. The name of the prime contractor?
    Mr. Smith. Waste Management.
    Mr. Kucinich. Waste Management. You started experiencing 
the theft of your wages right away?
    Mr. Smith. I started like after two or three checks, I 
started noticing a change, you know, differences in my wages. 
Like if I worked 40 hours, I would like get $500, if I worked 
30 hours, I liable to get $300. OK, so if I worked 80 hours, I 
liable to get----
    Mr. Kucinich. So they were consistently short-changing you, 
is that right?
    Mr. Smith. You know, every check would be a difference.
    Mr. Kucinich. So no matter how many hours you worked, they 
were always paying you less than what you should have been 
paid, is there right?
    Mr. Smith. Uh-huh. I have check stubs that show so many 
inconsistencies.
    Mr. Kucinich. Do you have your check stubs?
    Mr. Smith. Yes, I do.
    Mr. Kucinich. You do not have them here though, do you?
    Mr. Smith. Yes, sir.
    Mr. Kucinich. You have some check stubs? Could I see those?
    [Documents proffered.]
    Mr. Kucinich. OK, let the record reflect that the witness 
has provided this subcommittee with some check stubs. Now here 
it states, Mr. Smith, the hours that you worked, money that 
went to Clyde's Bank, extra for short pay for shop. Now tell me 
about these check stubs, explain them to me.
    Mr. Smith. OK, see this one here is 47 hours, 6 days, that 
is $566. That is 45 hours, 6 days, that is $388.
    Mr. Kucinich. And how many hours had you actually worked?
    Mr. Smith. I had worked those hours, but I am saying look 
at the check, the amount of check.
    Mr. Kucinich. What should it have been?
    Mr. Smith. It should have been more than that. [Laughter.]
    Mr. Kucinich. We have that established.
    Mr. Smith. Yes, sir. And this happened on several 
occasions, on every one you can see all of them have some kind 
of--there is one, 57 hours, look 57 hours and that is 47 hours 
and look at the amount.
    Mr. Kucinich. So they kept on adjusting the amount of money 
that you were paid on an hourly basis, they kept changing it.
    Mr. Smith. Uh-huh, they just paid me like they want to pay 
me.
    Mr. Kucinich. What did they--has the Department of Labor 
ever asked for your check stubs?
    Mr. Smith. No, sir.
    Mr. Kucinich. So they have not seen your check stubs.
    Mr. Smith. No, sir.
    Mr. Kucinich. Well, they are going to see them today.
    Mr. Mr. Smith. Yes, sir.
    Mr. Kucinich. May we have these?
    Mr. Smith. Yes, sir.
    Mr. Kucinich. We will make copies of them. Can we do that 
now? I just want to ask staff, can we get copies of these now? 
And then if we can get copies, we can give the originals back 
to Mr. Smith. If it is OK, the committee would like to have 
these to make copies.
    OK, I want to thank you Mr. Smith. The committee is going 
to make copies of these right now and we will give the 
originals back to Mr. Smith.
    Mr. Smith, you can be seated.
    Mr. Wilson, you stated that you know the identity of the 
subcontractor?
    Mr. Wilson. Yes.
    Mr. Kucinich. And who was the subcontractor?
    Mr. Wilson. The subcontractor was--JNE was the contractor, 
the subcontractor was ECC.
    Mr. Kucinich. ECC?
    Mr. Wilson. Yeah. That was the ones that was over the 
whole----
    Mr. Kucinich. Does that ECC stand for anything?
    Voice. Environmental----
    Mr. Kucinich. Unless you are sworn--do you know what it 
stands for?
    Mr. Wilson. No, I do not know what it stands for.
    Mr. Kucinich. OK, but that is the name. OK, and the prime 
contractor was?
    Mr. Wilson. ECC.
    Mr. Kucinich. I just want to make sure that we establish 
who the prime----
    Mr. Wilson. The contractor that I worked for, JNE was the 
contractor who was contracted by Hamp, who was contracted by 
ECC, which was over everything.
    Mr. Kucinich. OK, I have it. When did you start 
experiencing the theft of your wages?
    Mr. Wilson. The first week they held back and then the next 
2 weeks, I did not get paid. It probably was about 3 or 4 
weeks, that is when I spoke with Mr. Carter. Mr. Carter was 
with Phoenix and Global, that was the first one we worked for, 
Phoenix and Global.
    Mr. Kucinich. OK, and what month and year was that?
    Mr. Wilson. I think it was in October 2005.
    Mr. Kucinich. 2005, OK. How much are you owed right now?
    Mr. Wilson. Well, with the overtime, I have never really 
added it up, but I could say anywhere between three and four 
thousand dollars.
    Mr. Kucinich. OK. And what has that done to your life being 
short three and four thousand dollars?
    Mr. Wilson. Well, at the time, during Christmas time 
without getting paid anything, then being down here and going 
through the devastation of Katrina, by me being from here, it 
was really a mess, because we really did not have any--I did 
not have anything coming in. And I wound up having to go into 
my retirement with the school system and had to take all that 
down because I was not getting paid right, to make ends meet.
    Mr. Kucinich. Now did you provide this committee or can you 
provide this committee with check stubs? OK, you just provided 
this committee with copies of your pay stubs, is that right?
    Mr. Wilson. Right.
    Mr. Kucinich. And has the Department of Labor ever asked to 
see your pay stubs?
    Mr. Wilson. I spoke with a lady, I think her name was 
Deborah Brown, on the phone. She called me to ask me about the 
case with Mr. Steele, and I spoke with her on the phone and she 
asked me if I had check stubs, to send them in, and I sent them 
in to the Department of Labor.
    Mr. Kucinich. Have you heard from them since?
    Mr. Wilson. I have not heard anything from them.
    Mr. Kucinich. So you do not know if they have looked at 
them or not.
    Mr. Wilson. I do not know. I know she did tell me that she 
received it and that was the last I heard.
    Mr. Kucinich. When was that?
    Mr. Wilson. It had to be between June and July.
    Mr. Kucinich. I thank the gentleman.
    Mr. Hernandez, and I would ask his interpreter to come 
forward.
    Mr. Hernandez, as your boss continued to make you work and 
pay you close to nothing, did you think about going to the 
Department of Labor?
    Mr. Hernandez. [Through translator] No, because of my 
immigration status as undocumented, the fear is that if I went 
there, that I would be deported.
    Mr. Kucinich. Were you aware that there was a Federal 
agency that took complaints about workers not being paid or 
underpaid?
    Mr. Hernandez. No, I did not know of any Federal agencies 
only until I met with the Worker Center.
    Mr. Kucinich. How much money are you owed?
    Mr. Hernandez. The think is that as they took a little bit 
out of each check, I really do not know exactly how much, but 
they always discounted--they always deducted from my check.
    Mr. Kucinich. And so did you quantify that, do we know the 
exact amount?
    Mr. Hernandez. I cannot really say.
    Mr. Kucinich. OK. Would you like the Department of Labor to 
represent you to collect your wages even after all this time?
    Mr. Hernandez. Maybe not for me, but at least for my 
friends that continue to work for this company.
    Mr. Kucinich. See, the one thing that it is important to 
know is that despite your status, the Department of Labor can 
help you, even with your status. Now under those circumstances, 
would you like them to be of assistance to you to help you 
reclaim the wages that you have been denied?
    Mr. Hernandez. I do not know, because since I already quit, 
I really do not want to have more contact with these people.
    Mr. Kucinich. You do not want to have contact with which 
people?
    Mr. Hernandez. With the company. If I am understanding 
correctly, the gentleman here, for example, is putting a 
complaint against JNE and that is precisely the company that I 
was working for. And I think that when they were fired from 
their jobs, they contracted, they hired Hispanic people because 
they thought that they would not have the problems with us that 
they were having with them because we would not complain about 
our wages.
    Mr. Kucinich. You still are entitled to protection of the 
law in this regard and I am going to ask staff afterwards to 
provide the proper information to Mr. Hernandez as to how he 
can pursue a case under law and to make sure that you can have 
a case filed with the Department of Labor. You will not have to 
talk to the employer but the Department of Labor will have to 
talk to your employer.
    I just have one more question. Did the employer speak to 
you about paying you under the table?
    Mr. Hernandez. Well, at first I started working with a 
company that was subcontracted by JNE and they paid me cash. 
And they made us sign some documents saying that we were 
supposed to pay our own taxes.
    Mr. Kucinich. Do you have copies of those?
    Mr. Hernandez. I am not sure, but I think so. I can look 
for them.
    Mr. Kucinich. The committee would appreciate any copies of 
anything that you signed.
    Did you complain at any time about the conditions to them?
    Mr. Hernandez. What conditions?
    Mr. Kucinich. About conditions, about not being paid or 
being underpaid or, you know, did you complain to them at any 
time?
    Mr. Hernandez. Yeah, I always talked to them but they only 
said, you know, we will check it over and if there is some kind 
of a difference, then we will fix it. But they never did.
    Mr. Kucinich. And did they ever say anything else to you 
when you complained, like did anyone ever tell you or was there 
an understanding that if you complained too much, you would be 
deported? Was deportation ever held over your head?
    Mr. Hernandez. Last year there was another company that had 
a contract with JNE and they asked us if we wanted to work for 
4 hours after the work we did with JNE. We accepted that so we 
could make a little more money. But this company did not pay us 
for our wage for the 4-hours that we worked daily. And then 
after a month when we started to complain, they said that they 
would report us to Immigration if we continue to bother them 
about it. And so then JNE said that they would be responsible 
for paying us that money but that never happened either.
    Mr. Kucinich. I just want staff to make a note of this 
testimony because this might be something that is going to have 
to be referred to the U.S. attorney. This is obviously a 
question of criminal conduct here with respect to the employer 
and the subcontractor. So we are going to--this committee is 
going to continue to look into that.
    What was the name of the second subcontractor for whom you 
worked 4 hours a day and which you were told do not complain 
that you are not being paid or you will be deported--what was 
the name of that subcontractor?
    Mr. Hernandez. I do not know the name of the company but 
the person that was in charge that worked with JNE was named 
Seals.
    Mr. Kucinich. Seals, is it S-e-a-l-s? Could you describe 
Seals, what--you know, man, woman?
    Mr. Hernandez. Yeah, he is a man, he worked as a mechanic 
also for JNE.
    Mr. Kucinich. Was he Caucasian, was he----
    Mr. Hernandez. Black African.
    Mr. Kucinich. OK. We want to thank you for your testimony.
    The Chair is going to take a 5-minute recess. We are going 
to return with the second panel. I want to thank the members of 
the first panel and to assure you that we are going to pursue 
this.
    We are in recess for 5 minutes, be back in 5 minutes and I 
would ask the next witnesses to be ready.
    [Recess.]
    Mr. Kucinich. The committee will come to order. Thank you 
very much for being here. The committee will come to order.
    We have panel two and I am going to introduce the members 
of panel two. You can stand when you are introduced, if you 
would please do that. Mr. Sabulal Vijayan, guest worker; Ms. 
Maria Eugenia, guest worker; Mr. Rolando Sanchez, guest worker 
and Mr. Axel Landivar, guest worker.
    Voice. Not here.
    Mr. Kucinich. He is not here, OK. Mr. Daniel Castellanos, a 
former guest worker and organizer with the New Orleans Workers' 
Center for Racial Justice.
    We are also going to be joined by Mr. Jacob Horowitz of the 
New Orleans Workers' Center for Racial Justice. You are already 
sworn, Mr. Horowitz, so I appreciate you being here. But you 
could translate the oath if you would.
    If you would raise your right hands.
    [Witnesses sworn.]
    Mr. Kucinich. Let the record reflect that the witnesses 
have, through their translator, answered in the affirmative. 
Please be seated.
    I am going to ask Mr. Sabulal Vijayan to please come 
forward. And translator----
    Mr. Horowitz. I think he speaks English.
    Mr. Kucinich. OK, please proceed. And each witness will 
have 5 minutes. If you are using a translator, we will give you 
7 minutes, so that we can get your testimony, your full 
testimony will be included in the record. Please proceed.

  STATEMENTS OF SABULAL VIJAYAN, GUEST WORKER; MARIA EUGENIA, 
    GUEST WORKER; ROLANDO SANCHEZ, GUEST WORKER; AND DANIEL 
CASTELLANOS, FORMER GUEST WORKER AND ORGANIZER WITH NEW ORLEANS 
               WORKERS' CENTER FOR RACIAL JUSTICE

                  STATEMENT OF SABULAL VIJAYAN

    Mr. Vijayan. Good morning. I am Vijayan Sabulal, I am from 
India. I working in the United Arab Emirates. I am a pipefitter 
with 20 years experience. When I was in India, I saw some 
advertisement for the post of pipefitter for Signal 
International in Mississippi.
    Subagent of Signal promised H2-B visa leading to permanent 
visa status, and asked me to pay a huge amount for this. I 
thought that most of the time I worked in the United Arab 
Emirates, without my family. If I go to America, I can live 
happily with my kids and wife. I heard that in American 
everybody will get liberty and justice. So I paid nearly 
$20,000 to get this chance. There is about 600 employees from 
India reached Signal International in Mississippi and Texas.
    After I reached Signal International on December 5, 2006, I 
get shocked, because they gave me a bed in a trailer with 24 
people. I never lived in a room like this anywhere in my 
lifetime; and served very bad quality food and said that this 
was Indian food.
    Company deducted $1,050 per month from our paychecks. We 
were struggling in this trailer and woke up at 3:30 a.m. to 
start to use our bathroom. We were like pigs in a cage.
    I began organizing the people and making complaints to the 
camp manager. The management threatened us and told me that 
Signal invested millions of dollars in this labor camp and we 
are doing business. ``This is not your India, it is America. If 
you want to stay in this country, keep quiet and shut up. Sit 
down, Sabulal.'' I did so because I was not ready to lose this 
job because of my great debt. I sold my wife's jewelry, 
borrowed from my friends and invested the money I had saved to 
build a home, to come to America.
    Day by day, camp management was ignoring our needs, company 
said that this accommodation is approved by DOL, but we did not 
believe that. You can imagine that a room with 24 people and 
for asking better food, camp management called us animals. 
``Indians are behaving like animals.'' That was his answer. 
``We know the living conditions of Indians and you are getting 
more better food and accommodation here.''
    What are the promises they submitted to the Department of 
Labor, while applying for the visa, I do not know, but I think 
nobody inspected the camp and find out the reality. Signal 
started to reduce the salary from $18 to $13 and lay off some 
people, and they are forced to sign on new wage agreements.
    We conducted meeting at the nearest Catholic church with 
the help of New Orleans Workers' Center and Southern Poverty 
Law Center. After all these meetings, my wife in India got some 
phone calls from Signal Indian recruiter, Dewan, asking for my 
phone number and contact details. My wife got threatened. In a 
phone call, Indian agent told me that Signal informed him that 
I am the leader, and stop all these meetings, otherwise 
everybody will be deported.
    Another day, company management conducted a meeting in the 
labor camp and threatened us to stop all activities or we will 
all be deported from the United States.
    The next day, March 9th, the real tragedy I ever faced in 
my life. In the early morning, I saw two people were locked up 
in TV room. 5:10 a.m., I was packing my lunch box inside the 
mess hall. Armed security guard with camp manager came to me 
and told me that ``you are under our custody, obey the security 
guard and come to the TV room.'' I tried to take a cup of 
coffee but I was shivering and failed to take my breakfast. I 
went to my room, security guard tried to stop me and another 
security was shouting and chasing me. Camp manager shout at me 
and told me to go to the TV room, I told him that I need to 
wash my hands. I was losing my control, afraid that company was 
going to harm me and deport me to India. I afraid to go back 
home empty handed in front of my poor family and the society. I 
cut my wrist with a razor blade. The threatening situation 
created by Signal forced me to do so. I was in hospital for 3 
days, my family wept for weeks, my child told me ``come back, 
dad, I need my dad.''
    I got three increments in the company for my performance. I 
only get punished for fighting against this injustice. 
Department of Labor approved this labor certification, they did 
not check the reality inside the company.
    My question is this--after all these incidents, what 
actions taken by Department of Labor against this injustice? 
Agents, subcontractor and companies in the United States are 
doing H2-B visa program as a business, and they are cheating 
the U.S. Government and the people by spoiling their life, and 
earning millions of dollars every year.
    My request to this committee is this--please let the H2-B 
visa holder to live with dignity, give them enough time to earn 
some money. Give them the right to change his employer if they 
wish.
    Please find these criminals who are doing H2-B visa program 
as a business and punish them. DOL can do a major role in this 
H2-B visa program to stop selling this H2-B visa and to stop 
this modern slavery.
    Thank you.
    Mr. Kucinich. Thank you very much. Could you provide the 
stenographer there with your written statement?
    Mr. Vijayan. Sure.
    Mr. Kucinich. Thank you.
    Next, we will hear from Ms. Maria Eugenia, who will be 
assisted in the translation by Mr. Jacob Horowitz. Proceed. 
Thank you.
    [The prepared statement of Mr. Vijayan follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                   STATEMENT OF MARIA EUGENIA

    Ms. Eugenia. [Through Translator] My name is Maria, I am 
from Bolivia. I am a guest worker.
    I heard about the H2-B visa while I was in Bolivia and I 
took it as an opportunity to come and work. My country is in a 
political economic crisis, a very huge crisis, and there is no 
work there. I am a single mother with two children and I have a 
lot of debt. So I wanted to continue to support them so that 
they could go and study.
    The promises that were made to me were very good. I was 
offered very good money, I was supposed to have a guaranteed 
place to live and food as well. And then they told me that my 
employer was waiting for me and that I should be in La Place, 
Louisiana in 3 days. So then I had to borrow more money so that 
I could pay for the trip and pay the recruitment fee and then I 
came.
    When I came, however, there was no job. There were three of 
us and they told us that we would have to take responsibility 
for ourselves. They put us up for 2 days and then after that, 
we were on our own. So we started to make phone calls trying to 
figure out what we were going to do. And then we ended up 
coming to New Orleans. I first went to the house of another 
Latino, but once the $160 that I had brought with me was gone, 
I was left out in the street. I found myself alone without 
friends and without money. I did not have a place to live and I 
had to beg from people in the buses and Latino people. It was 
like that for me for more than a month and a half. There were a 
lot of times when I felt like I just wanted to die. It was a 
very difficult winter for me and I had no place to sleep and it 
was ironic to pay so much to come and then come and be homeless 
here.
    I started to look for work with the visa that I had. Nobody 
had told me that the visa only functions for one employer.
    So the question that I ask is what does the Department of 
Labor do when an employer like this breaks their contract, like 
the contract they had with me? What crime did I commit to be in 
this situation? I only came to make money and try and improve 
my situation and the situation of my children.
    Thank you.
    Mr. Kucinich. Thank you very much for your testimony and I 
know it was very difficult. But the fact that you have come 
here and given it has been very important. So thank you.
    Mr. Rolando Sanchez.

                  STATEMENT OF ROLANDO SANCHEZ

    Mr. Sanchez. [Through Translator] Hello, my name is Rolando 
Sanchez. I am from Tegucigalpa, Honduras and I also came with 
an H2-B visa.
    I came here to help my family and above all, to help my 
children. I found out about the opportunity from a newspaper ad 
in my country. So then I went to where the recruiter's office 
was. I was promised about this great opportunity to make money. 
There at the recruiter's office, I was told that I had to pay 
$4,000 to come. I also had to do some tests, some welding 
tests, I am a welder. And then each test that I did cost me 200 
Lempira, which is the money in my country. They promised us 
good living conditions, good work conditions, we were going to 
get housing. And then they also asked us to sign an IOU or a 
contract for $30,000. The contract we had to sign so that if we 
went to another company, we would be responsible for the 
$30,000. I had to take on a lot of debt to come here. In order 
to pay the amount of money that was being asked by the 
recruiter, I had to get a loan from the bank.
    So then when I arrived in New Orleans, I was here and for 
an entire month and a half, I was given no work at all. During 
that month and a half, we were loaned $50 a week. But during 
that whole month and a half, our families were suffering, they 
were hungry at home. The interest on our loans was rising and 
rising. And then eventually I was sent to work in the road, 
working in a shipyard, repairing and building ships.
    They placed us in some trailers. These trailers are 
supposed to be for six people, but they stuck 12 of us in them. 
We were not happy because it was a bad situation with so many 
people.
    Then in January, I had an accident that I did not report. 
And then later I had another accident that I did report. But 
then the company did not want to be responsible at all for my 
treatment. We even had a big meeting with our boss and we 
demanded that he give us medical treatment but then after that, 
there was retaliation.
    He lowered our wages and now he has brought Mexicans to 
displace us because he says he does not want to work with 
Hondurans any more. He also promised that we were going to get 
two more visa extensions or three more visa extensions. But now 
he just wants to displace us and bring people from another 
country.
    The contract that we were hired on expired in June, but he 
continues to promise that extensions are coming and coming. In 
the case of my accident, I continued to be in the hospital, but 
he will not pay for my recuperation at all. I needed surgery on 
my left leg where I had this accident, so I would like to know 
what Department of Labor does when people like this, my 
employer, do not fulfill these contracts or their 
responsibilities.
    That is all I have.
    Mr. Kucinich. Thank you very much.
    Mr. Daniel Castellanos.

                STATEMENT OF DANIEL CASTELLANOS

    Mr. Castellanos. [Through Translator] Good afternoon, I am 
Daniel Castellanos, I come from Peru.
    Like many workers, after Hurricane Katrina, we came to help 
rebuild the city. As the situation in my country is very 
chaotic, the best option was to look for work somewhere else. 
So just like the others, you know, we read some ads in the 
paper that offered these types of jobs. In Peru, we had to pay 
between $4,000 and $5,000 to come. And of course, nobody has 
this quantity of money within their power. We had to get loans 
from the bank, sell our personal belongings. But with the 
promises that we were made--that were made to us by recruiters 
that we were going to make a great wage and live in great 
living conditions, we came with all these hopes.
    Of the 800 people that applied for their visas with me, 
only 80 were accepted. The 80 of us that were selected, we felt 
very lucky. But then all of this changed once we arrived in New 
Orleans. We realized that all the promises that had been made 
to us were completely false. The $10 that we were offered as an 
hourly wage was reduced to $6 an hour. The 60 hours that they 
offered us a week was reduced to 25. The house that we had been 
offered to live in was actually a hotel that was completely--
that was half destroyed and we had to rebuild it ourselves. We 
slept six or eight people in a small hotel room. There was 
about 300 of us between the Peruvians, Bolivians and Dominicans 
that came. And everyone with the same problem, we had paid so 
much and we were not being given what we had been promised.
    So we began to organize. We joined together to try and ask 
our boss for something better from the situation. For me, you 
know, I noticed that there was a lot of people living in these 
hotels that were from FEMA. And so I asked them, why is it that 
you gave us work and here in your own hotel there are so many 
people that are unemployed. And he told me in these words, 
``Black people are lazy.'' So at that moment, I did not really 
know what to think. You know, this is the idea that they put in 
our heads. And then they told the African-Americans that we had 
come to steal their jobs. So it is a game that the system 
plays.
    So I organized my coworkers and we had a big meeting with 
the boss. But after that, he did not--nothing happened. As a 
result of that, we decided to sue our boss. Two days after we 
filed the lawsuit, my boss fired me, saying that I was lazy.
    Now as an organizer, I have seen far too many things that 
are similar to what we are living right here. For example, 
there are so many people, employers, that bring people here 
just to rent them out. And they pass them from company to 
company charging them huge amounts of money.
    Supposedly we are legal here, but we are the legal workers 
that are exploited here. We do not have rights. We are second 
class workers and as my friend has said, with only one boss.
    So my question to the Department of Labor is why do they 
give these labor certifications to these companies that are 
just trying to profit and profit off of these situations. They 
just look for cheap labor, they try and displace local workers 
and changing the local workers for workers that are cheaper and 
easier to exploit.
    So now as new immigration laws are being discussed, we want 
to be taken into account, so that we can improve the situation 
of guest workers. We feel that we are the experts in this 
because we live this experience every day. So we want to be 
taken into account by the Congress, so that we can help improve 
this law. And we also want to improve the situation and our 
relationship with our family members, our African-American 
brothers and sisters.
    Thank you very much.
    Mr. Kucinich. I want to thank you very much for your 
testimony and to all the witnesses, if Mr. Horowitz could 
translate this back. The questions that you raised about the 
Department of Labor's responsibilities to you, these are also 
our questions. And we are going to be asking them shortly of 
the Department of Labor's witness who is on the next panel.
    So we are going to move right away to that witness and I am 
going to ask the witness from the Department of Labor to come 
forward right now and we will get to the questions.
    I want to introduce Ms. Barbara Hicks, who is the Director, 
Wage and Hour Division, Employment Standards Administration, 
Department of Labor District Office, New Orleans.
    Ms. Hicks, welcome to this subcommittee, we appreciate your 
presence here.
    Ms. Hicks. Thank you.
    Mr. Kucinich. I understand that you have a statement?
    Ms. Hicks. Yes, sir.
    Mr. Kucinich. I would ask that you keep the statement to 5 
minutes. If it is over 5 minutes, I can assure you that the 
full text of the statement will be included in the record and 
we would ask that you proceed. Thank you.

 STATEMENT OF BARBARA HICKS, DIRECTOR, WAGE AND HOUR DIVISION, 
   EMPLOYMENT STANDARDS ADMINISTRATION, DEPARTMENT OF LABOR 
                DISTRICT OFFICE, NEW ORLEANS, LA

    Ms. Hicks. Chairman Kucinich, ranking member and 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you today to discuss the efforts 
of the Department of Labor's Wage and Hour Division----
    Mr. Kucinich. Excuse me. I neglected to ask you to be sworn 
and I would--I apologize for that. I am going to ask you to 
raise your right hand.
    [Witness sworn.]
    Mr. Kucinich. I thank you very much. Let the record reflect 
that the witness answered in the affirmative. I thank you for 
your indulgence. You may proceed with your testimony. Thank 
you.
    Ms. Hicks. As the District Director of the New Orleans 
District Office, I supervise investigators, technicians and 
support staff in offices in the city of New Orleans as well as 
in four field stations across the state of Louisiana.
    In understanding the efforts of the New Orleans District 
Office, it is important to understand the backdrop against 
which those efforts took place. As a result of Hurricane 
Katrina, which struck New Orleans on August 29, 2005, staff 
members of the New Orleans District Office evacuated from New 
Orleans and relocated to various locations around the country, 
including Houston, Dallas; Grand Rapids, Michigan; Baton Rouge; 
and Jacksonville, Florida.
    Compounding the issues associated with--the District Office 
moved a total of five times. First, we operated out of Houston. 
From Houston, we operated out of the Baton Rouge office. From 
that location, we went to Clearview Mall and operated out of 
what had been a former retail shoe store. Then we moved to 
temporary space in the F. Edward Hebert Building in New 
Orleans. And then finally, in December 2006, we were able to 
move to our permanent location in F. Edward Hebert Building.
    Compounding the issues associated with moving an office 
five times in the course of 16 months were the personal issues 
being dealt with by the New Orleans District Office staff 
themselves. Over half of the staff assigned to work in New 
Orleans experienced significant damage to their homes and 
belongings, with about one-third losing everything that they 
owned.
    The issues that the New Orleans District Office experienced 
were not unlike those experienced by anyone trying to re-
establish his or her life again in New Orleans. Some of those 
issues were:
    Finding schools that were operating and able to accommodate 
the needs of the children.
    Finding adequate healthcare for themselves and their 
families.
    Finding repairmen who could help them with receiving basic 
services such as water, heat and electricity in their homes.
    Repeatedly meeting with insurance adjusters in an attempt 
to obtain the money that they needed to repair their homes.
    Finding affordable alternative housing until their homes 
could be repaired.
    Finding alternative methods of transportation when vehicles 
were lost in the storm and public transportation was operating 
on a very limited schedule.
    For those who did not have adequate insurance, meeting with 
the Red Cross and FEMA to obtain assistance.
    These are just some of the challenges that the staff 
experienced. Despite these challenges though, each one of the 
New Orleans District Office staff members returned to the 
office and began working.
    Upon returning to New Orleans, one of the most significant 
challenges was the sudden and dramatic demographic shift in the 
area. According to some news accounts, the Hispanic population 
in the New Orleans metropolitan area had increased from 2 to 20 
percent. And it was obvious that the two Spanish speakers on 
staff at the time would not be adequate to serve the Hispanic 
workers who had come to the area to help rebuild. We realized 
that we needed to address this problem in both the short term 
and the long term.
    Our short-term solution was to rotate experienced detailed 
investigators who were Spanish speakers from other offices 
across the country into New Orleans. Those details lasted 
anywhere from 2 weeks to 4 weeks at a time, with some doing 
even in excess of 4 weeks.
    Our long-term solution has been to increase the number of 
Spanish-speaking investigators in the New Orleans District 
Office to improve outreach and accessibility to the Hispanic 
community. In addition, the New Orleans District Office opened 
a satellite office in Kenner, Louisiana, approximately 15 miles 
from the District Office. This is an office which is staffed by 
four--I am sorry, three investigators and one team leader. 
Three of those staff members are Spanish speakers. The team 
leader, in addition to having management duties, also conducts 
investigations. One of the main purposes of the satellite 
office is to provide easy access to Wage and Hour Division for 
workers who are reluctant to come to a Federal building to file 
a complaint. Kenner, Louisiana is located in a community that 
is heavily populated with Hispanic workers and businesses. So 
that is why we chose that location.
    Our efforts to improve outreach also included outreach and 
I will briefly outline some of those.
    In December, I traveled to Houston, Texas to meet with the 
Mexican Consulate to see what could be done or what role we 
could play in addressing wage issues that we heard.
    Mr. Kucinich. Please continue for a few more minutes, I 
just wanted to let you know.
    Ms. Hicks. On three occasions, on January 19th, 24th and 
February 9th, early on, after the storm in 2006, we conducted--
we had Spanish speakers, experienced Spanish speakers, 
investigators, that came down from other offices and 
participated in radio community call-in programs so that the 
community could be advised of what their rights were. In 
addition to that, they conducted investigations.
    In March 2006, we participated in an outreach activity 
sponsored by Loyola Law Clinic in which workers were informed 
of their rights and how to file a complaint.
    In May 2006, the Mobile Mexican Consulate came down and we 
participated in that affair in order to provide workers with 
their rights and how to file complaints when they were not paid 
correctly.
    On August 13, 2006, the New Orleans District Office 
participated in a job fair which was co-sponsored by St. 
Joseph's Church and the Hispanic Apostolate.
    We have developed a relationship with the Honduran 
Consulate and we have provided literature to that Consulate in 
order to get the workers their rights to them. And that 
literature was provided in Spanish and asked that it be 
distributed.
    We developed a working relationship with the New Orleans 
Workers Center for Racial Justice. I met with Saket Soni right 
after the storm and provided him literature and asked him to 
distribute flyers announcing our presence at an outreach event 
that we held regularly, that outreach event, starting in March, 
February or March 2006 until it closed. The Good News Camp was 
a faith-based facility that provided food, clothing and other 
supplies to workers. Twice a week from February through August 
or until August 1st, we had two investigators to come to that 
facility twice a week, once for lunch and once for dinner, in 
order to provide workers the access that they needed in order 
to find out what their rights were and we were able to take 
complaints and give information about their rights during that 
time.
    After that facility closed down, we began going to the 
Lantern Light Ministry, which was sponsored--it is at St. 
Joseph's Church, sponsored by St. Joseph's Church and the 
Hispanic Apostolate. And once a week, we made our presence 
there with a Spanish speaker in order to provide again 
compliance assistance.
    Despite the outreach efforts, the heart of our effort has 
been with conducting investigations. There are two types of 
investigations. One that is complaint driven, meaning that we 
get a complaint from--a direct complaint from an employee, and 
the other one would be a directed investigation in which we 
have not received a complaint but we have received information 
that would suggest that there is a high probability that the 
companies are not complying with the laws that we enforce.
    Before August 2005, most of the investigations conducted by 
the New Orleans District Office were generated by complaints 
from the general public. And this remains the case today in the 
field stations, in the four field stations in Monroe, 
Shreveport, Baton Route and Lafayette, Louisiana. In the New 
Orleans area, however, only a minimal number of complaints were 
coming into the office after the storm. For this reason, we 
decided that the New Orleans District Office would begin to 
systematically conduct directed investigations of all of the 
major prime contractors on government contracts and their 
subcontractors. Because the New Orleans District Office staff 
working in the Katrina-affected area heard and read stories 
almost on a daily basis from the media indicating that workers 
were being required to work 10 and 12 hours a day, 6 and 7 days 
a week, the New Orleans District Office management considered 
it a high probability that some workers were not being paid the 
prevailing wage or proper overtime. The news stories further 
indicated that workers engaged in installing the ``blue roofs'' 
were paid piece rates without overtime pay, and that at the 
lower layers of the subcontractors there were instances of 
employees receiving less than minimum wage or in some cases no 
pay at all. The same stories appeared in the media regarding 
debris removal contracts.
    To date, the New Orleans District Office continues to 
conduct directed investigations of employers working on the 
various contracts let for the recovery of New Orleans. 
Complaints affecting employees in the New Orleans area are 
worked as they are received.
    Our enforcement efforts have not been without challenges. 
Among the substantive challenges facing us in New Orleans, has 
been the misclassification of employees as independent 
contractors. We also have run into concerns with respect to 
coverage or the applicability of the statutes enforced by Wage 
and Hour Division. In addition, workers, frequently day 
laborers, often lacked basic information such as the name of 
their employer. For many of these workers, the statutes that 
Wage and Hour Division enforces simply did not apply because, 
for example, there was no employment relationship, or the 
requisite connection with interstate commerce. Thus, for a 
variety of reasons, including lack of coverage and inability of 
workers to identify their employer, in New Orleans we often 
found it difficult to link the workers to an employer that we 
could hold responsible for compliance with the applicable 
statutes. Moreover, even when we can establish such a link, the 
complexities of identifying employment relationships between 
workers and the companies for which they worked and of 
determining the existence of joint liability so as to reach an 
employer financially able to pay the back wages, often resulted 
in lengthier investigations and slower than typical back wage 
recovery.
    Yet another challenge is unlike anything we had ever 
experienced previously. Federal assistance has poured into the 
region. The need for an immediate response to the conditions in 
the area resulted in multiple layers of subcontracting and 
blurred lines of employer accountability. In our experience 
with government contracts, a Service Contract Act investigation 
typically involves one or two tiers of subcontractors. In New 
Orleans, however, we frequently encountered situations where 
the prime contractor had dozens, if not hundreds, of lower tier 
subcontractors. In one case, we identified over 120 
subcontractors to a prime contractor on a U.S. Army Corps of 
Engineers debris removal contract. In another example, a prime 
contractor had 72 first tier subcontractors working in one 
parish and 183 in another, for a total of 255 first tier 
subcontractors. Some of these upper-tiered subcontractors had 
little or no experience in government contracting and many 
failed to include the required wage determination and contract 
stipulations into contracts with their lower tiered 
subcontractors.
    The New Orleans District Office's future strategies, indeed 
all of Wage and Hour, will buildupon the lessons learned over 
the past 2 years. Our new investigators have received advanced 
training in the government contract statutes, a course 
typically reserved for more senior investigators. Our direct 
enforcement program will continue to take a top-down approach 
to enforcing the government contract statutes, holding prime 
contractors responsible for their subcontractors' violations.
    The long-term reconstruction of New Orleans will require a 
strong presence by the New Orleans District Office. We will 
continue to explore new strategies and partnerships to reach 
vulnerable workers, and pursue all opportunities to meet any 
new compliance challenges that may arise.
    Mr. Chairman, this concludes my prepared remarks. I will be 
happy to answer any questions you or the members of the 
subcommittee may have.
    [The prepared statement of Ms. Hicks follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. Thank you very much for your testimony. The 
Chair suspended the 5-minute rule because we wanted to make 
sure that you would feel that you were given a chance to make a 
complete statement. I felt that was important to be fair to 
you.
    Ms. Hicks. Thank you.
    Mr. Kucinich. The testimony that we have heard sounds as if 
it reflects the existence of widespread systematic lawlessness. 
Some people have called it a wild, wild west atmosphere. Would 
you agree with this description?
    Ms. Hicks. No, sir, I wouldn't not agree with that 
description. It has been a challenge, but I am not sure what 
wild, wild west means.
    Mr. Kucinich. Well, I would imagine that it means that 
labor law is not being enforced.
    Ms. Hicks. But labor law is being enforced.
    Mr. Kucinich. Broad non-enforcement of labor law.
    Ms. Hicks. Then I would not agree with that.
    Mr. Kucinich. At this committee's June 26th hearing--let me 
go back to something here.
    How many cases do you have pending? How many complaints 
have you had to your office?
    Ms. Hicks. I can give you some information on the 
complaints that we have had based on the fiscal years.
    Mr. Kucinich. OK, let us start with 2005, how many 
complaints did you have?
    Ms. Hicks. In 2005, fiscal year 2005, we had 508.
    Mr. Kucinich. How many people were on the staff in 2005?
    Ms. Hicks. Five investigators, two support and two managers 
in the District Office. But also we had two investigators and a 
support person in Baton Route, one in Lafayette, one in 
Shreveport and one in Monroe.
    Mr. Kucinich. And how many--now when something is a 
complaint, is that a complaint received and is it a complaint 
that has been handled? Or does it just indicate intake as 
opposed to----
    Ms. Hicks. These are actually concluded complaints.
    Mr. Kucinich. OK, how many were opened, how many were 
unconcluded complaints?
    Ms. Hicks. I do not know how many were unconcluded. I do 
not have those numbers.
    Mr. Kucinich. Did you keep statistics if somebody called 
and complained?
    Ms. Hicks. If we--yes, if we got a complaint and it was a 
complaint that we had jurisdiction over, then a complaint would 
be taken and an investigation would be generated as a result of 
that complaint.
    Mr. Kucinich. So the only numbers you have are cases that 
you completed. You do not have any about cases that somebody 
asked you, filed a complaint that you did not get into.
    Ms. Hicks. No, I do not. If we had no jurisdiction, we 
would have no record of that.
    Mr. Kucinich. How would you know if you had jurisdiction if 
people did not get calls back?
    Ms. Hicks. No, when I am saying complaints, it means that 
we talked with someone and explored whether or not we had 
jurisdiction. When callers call in, there is someone that talks 
with that person about what their complaint is, what their 
issues are. And if it is one that Wage and Hour has 
jurisdiction over, we will take that complaint.
    Mr. Kucinich. Are there workers being cheated out of their 
wages?
    Ms. Hicks. I think there are workers being cheated out of 
their wages.
    Mr. Kucinich. Are they being cheated out of their wages by 
contractors and subcontractors?
    Ms. Hicks. Yes, I believe they are.
    Mr. Kucinich. Are those workers both U.S. citizens born in 
the United States--do they include U.S. workers born in the 
United States?
    Ms. Hicks. Yes.
    Mr. Kucinich. Do they include people who are documented 
workers who are guests here from other countries?
    Ms. Hicks. Yes, I believe they do.
    Mr. Kucinich. Do they include undocumented, people who are 
undocumented?
    Ms. Hicks. Yes.
    Mr. Kucinich. So your testimony is that you are aware that 
there has been a number of cases of people not being paid for 
the work that they have done.
    Ms. Hicks. That is correct. With respect to their status of 
documented or undocumented, we do not know that because we do 
not ask.
    Mr. Kucinich. Thank you. And what kind of action has been 
taken with respect to those cases? How many--have you collected 
money for workers?
    Ms. Hicks. Yes, we have.
    Mr. Kucinich. In how many of those cases have you collected 
money for the workers?
    Ms. Hicks. We have collected--what year are you asking 
about?
    Mr. Kucinich. Start with 2005, 2006.
    Ms. Hicks. 2005, we concluded 526 cases; in fiscal year 
2006, we concluded 506 and fiscal year 2007, 536.
    Mr. Kucinich. Are you counting cases that originated before 
Katrina?
    Ms. Hicks. In 2005, there would have been some that 
originated----
    Mr. Kucinich. Let us go to 2006 then so we do not----
    Ms. Hicks. 2006, we concluded 506. Now some of those may 
have originated prior to Katrina, I just have no way of knowing 
that.
    Mr. Kucinich. You heard the testimony of the first panel, 
all witnesses knew the identity of the subcontractor they 
worked for and the contractor. And in one upper tier case, it 
was ECC and in the other it was Waste Management, Inc. These 
companies were among the largest prime contractors after 
Hurricane Katrina but the wage theft, according to the 
testimony, occurred about 2 years ago.
    Can you tell this committee what happens to a worker's 
right to unpaid wages after 2 years?
    Ms. Hicks. In a government contract, there is no statute of 
limitations. So the worker is still entitled to their wages.
    Mr. Kucinich. What about the Fair Labor Standards statute?
    Ms. Hicks. The Fair Labor Standards Act, there is a 2-year 
statute of limitations.
    Mr. Kucinich. When does that begin to run?
    Ms. Hicks. I am sorry?
    Mr. Kucinich. When does that statute begin to run?
    Ms. Hicks. It begins to run after--in other words, we 
cannot collect anything that was earned prior to 2 years.
    Mr. Kucinich. What can Department of Labor do for workers 
after 2 years has elapsed?
    Ms. Hicks. The Department of Labor can do nothing unless we 
can prove willful, then we can use 3 years statute.
    Mr. Kucinich. So I just want to clarify this. Can you do 
nothing or can you do something?
    Ms. Hicks. For Fair Labor Standards Act after 2 years, we 
cannot. If the statute has run on the money that was earned, we 
cannot do anything.
    Mr. Kucinich. What can you do with a case once the 2-year 
period, the statute of limitations has expired?
    Ms. Hicks. We cannot do anything.
    Mr. Kucinich. Can you file an action to get back wages?
    Ms. Hicks. After 2 years, no.
    Mr. Kucinich. And yet this committee has information that 
there are people who have been waiting quite awhile. If they 
are not--if they cannot get their wages back, they are just out 
of luck, is that right?
    Ms. Hicks. My understanding is that those were government 
contract cases and since there is no statute on government 
contracts; no, the money is not lost.
    Mr. Kucinich. Why has it taken more than a year to resolve 
Mr. Steele's case, especially after his particular case 
received national attention?
    Ms. Hicks. It is an open case but I can--I think it would 
be helpful to explain to you about our investigation 
procedures. When we get a complaint from an employee that says, 
you know, I worked for a particular company and was not paid 
for it, and the complaint appears valid--and we did take Mr. 
Steele's complaint. But in those cases where we go to the 
employer and there is no evidence that the employee worked, 
then we must go to the employee and say to the employee can you 
give us some information that would help to substantiate that 
you in fact worked for the company. Can you give us the names 
of other employees that you worked with. And that is the 
process that we follow in all cases where the employer denies--
--
    Mr. Kucinich. Well, we have had people come up here and 
name the contractor and the subcontractor.
    Ms. Hicks. Yes, sir, I heard.
    Mr. Kucinich. Are you familiar with all those cases?
    Ms. Hicks. I am.
    Mr. Kucinich. And has nothing been done on them? Are these 
cases still open?
    Ms. Hicks. They are still open.
    Mr. Kucinich. Are any of these cases being referred to the 
Justice Department?
    Ms. Hicks. We are still working these cases.
    Mr. Kucinich. And, you know, we had at our June 26th 
hearing the Administrator of the Wage and Hour Division, Mr. 
DeCamp, said that myriad labor law violations in New Orleans 
constitute a temporary bubble, albeit a significant bubble, in 
terms of violations and in terms of the workload in the Gulf 
Coast and New Orleans in particular that will last for the next 
2 to 5 years. For that reason Department of Labor did not want 
to hire permanent employees in New Orleans.
    Let me ask you a few questions about this. Do you agree 
with Mr. DeCamp's assertion that labor law violations in New 
Orleans constitute a temporary bubble?
    Ms. Hicks. I believe it constitutes a temporary bubble, 
yes.
    Mr. Kucinich. When is that bubble going to pop then?
    Ms. Hicks. I do not know when it is going to pop.
    Mr. Kucinich. And what would be the cause of it popping? 
You do not know? When are you going to resolve all of your 
cases, do you have any idea?
    Ms. Hicks. Well, no I do not know when we are going to 
resolve them, but we are working on them.
    Mr. Kucinich. There is a relationship between that and the 
clean up and the reconstruction in New Orleans. Do you know 
when that is going to be completed? Do you have any idea?
    Ms. Hicks. Any idea when the reconstruction is going to be 
completed?
    Mr. Kucinich. Right, because it does affect your workload.
    Ms. Hicks. No, I have no way of knowing when the 
reconstruction is going to be completed.
    Mr. Kucinich. Now what about when the statute of 
limitations runs out on claims that arose in the aftermath of 
the hurricanes? You know, does that change the bubble?
    Ms. Hicks. The statute of limitations running out----
    Mr. Kucinich. The statute of limitations running out, does 
that cause the bubble to pop?
    Ms. Hicks. I do not know whether it will cause the bubble 
to pop or not.
    Mr. Kucinich. Well, if the cases cannot be acted upon, then 
you go back to what Mr. DeCamp said. He said that it is a 
temporary bubble that is going to last 2 to 5 years. Well, if 
he is countenancing the lapsing of the statute of limitations, 
what he may be saying is that the bubble is going to pop but 
people are not going to get their money.
    Ms. Hicks. I do not know what Mr. DeCamp is saying but it--
--
    Mr. Kucinich. What do you say, what is your opinion?
    Ms. Hicks. My opinion is that one of the reasons that we do 
outreach and get our name out there and our contact information 
out there, is so that employees know where to come to file a 
complaint prior to the statute of limitations running. If they 
can contact us and let us know that they are not being paid 
correctly and it sounds as if it is a complaint that we can 
address, then we will take that complaint.
    Mr. Kucinich. I do not understand, hearing the testimony 
that I have heard from some of the witnesses here. I am trying 
to see how their testimony fits with your statement that labor 
law is being enforced. Do you understand why I would have 
trouble trying to make that fit? You are telling me labor law 
is being enforced and their testimony under oath is a clear 
indication that labor law is not being enforced. You know, I am 
trying to figure out how I make this fit.
    Ms. Hicks. Well, it is being enforced. On the government 
contract cases as I indicated earlier, there are hundreds of 
subcontractors and we are systematically investigating, 
directed case investigations on all of those layers of 
contractors.
    Mr. Kucinich. How many people are doing the investigations? 
How many case investigators do you have?
    Ms. Hicks. Well, we have--are you talking about just in the 
New Orleans area or the whole District Office?
    Mr. Kucinich. Both.
    Ms. Hicks. OK, just in the New Orleans Office, we have nine 
investigators and we have one team leader who also does 
investigations. We have one investigator in Baton Rouge, one in 
Shreveport and one in Monroe.
    Mr. Kucinich. And these investigators are in charge of 
investigating how many contractors, subcontractors, hundreds?
    Ms. Hicks. We all do hundreds. We are, as an office, 
charged with doing hundreds, not any one investigator. One 
investigator that is assigned a case would, if it has 100 and 
some odd subcontractors on it, they would be charged with doing 
that.
    Mr. Kucinich. And how long might a case take to 
investigate, one case?
    Ms. Hicks. A government contract case could take a long 
time because it's mainly the problem of locating the 
subcontractors.
    Mr. Kucinich. Can you find the subcontractors always?
    Ms. Hicks. Sometimes we cannot, but almost always the prime 
contractors can.
    Mr. Kucinich. And if the prime contractors cannot find the 
subcontractors, do you hold the prime contractors accountable?
    Ms. Hicks. Yes, we do.
    Mr. Kucinich. Have you ever taken action to decertify a 
prime contractor?
    Ms. Hicks. What we do is withholding from the prime 
contractor.
    Mr. Kucinich. But can you stop a prime contractor from 
doing work if they are not paying their workers?
    Ms. Hicks. Yes, they can be debarred.
    Mr. Kucinich. How many have been debarred?
    Ms. Hicks. Prime contractors, I am not aware of any prime 
contractors that have been debarred.
    Mr. Kucinich. We have testimony here from witnesses who 
have said that they have not been paid. They named the 
subcontractor and the prime contractor. Why if we have cases 
open that have not been resolved--you know, people have 
testified here under oath that some have not been paid for a 
long time, how is it that these prime contractors can continue 
to operate under law if you say that the labor law is being 
enforced?
    Ms. Hicks. Well, when we take complaints, a part of our job 
is to verify whether or not that information is correct. We 
cannot just go to the employer and say you owe this person 
because we said so. We have to take a look at investigative 
steps. We look at the records, we talk with other employees and 
then we draw a conclusion----
    Mr. Kucinich. Do you ask for pay stubs as you are gathering 
information?
    Ms. Hicks. We ask for payroll records, we get payroll 
records from the employer.
    Mr. Kucinich. And have you been able to ascertain through 
payroll records that people were underpaid?
    Ms. Hicks. Yes.
    Mr. Kucinich. Have you been able to ascertain from payroll 
records that people were not paid at all even though they did 
the work?
    Ms. Hicks. There have been some cases of that.
    Mr. Kucinich. Were you able to ascertain that some people 
were--from the lack of records and from interviewing people who 
were undocumented that some people were told that they were 
going to be paid under the table and they were not paid?
    Ms. Hicks. Well, again, we do not know whether employees 
are documented or undocumented because we do not ask that 
question, it is immaterial. We have found workers who had not 
been paid.
    Mr. Kucinich. Have you communicated to people in Kenner in 
Spanish that they have rights, that they are protected under 
law, that they can come to the Department of Labor to present 
their complaint?
    Ms. Hicks. Yes, sir, we have. Early on right after the 
storm, right after we got back into our space here in the New 
Orleans area, we conducted outreach with the Spanish radio 
station and those were call-in shows, so that the first half of 
that program would be devoted to explaining the rights that 
workers had and the second part would be to answer questions 
that they presented.
    Mr. Kucinich. Do you have any printed materials?
    Ms. Hicks. Printed materials? We do have printed materials 
that we have distributed all over the city. Some of the 
advocacy groups have helped us.
    Mr. Kucinich. I want to go back to your assertion that you 
are enforcing labor law.
    Ms. Hicks. All right.
    Mr. Kucinich. Are you familiar with Mr. Wilson's case?
    Ms. Hicks. Yes, I am familiar with Mr. Wilson's case.
    Mr. Kucinich. What is the status of his case?
    Ms. Hicks. The status of his case is that we are in the 
process--we have been able to confirm a portion of the time 
that he indicated he worked for an entity and we are in the 
process of conducting the investigation on that.
    Mr. Kucinich. And you know, in a case like Mr. Steele, Mr. 
Smith, Mr. McQuirter, any of the other witnesses who have 
testified, how long might it take for their case to be worked 
through your system?
    Ms. Hicks. Sir, I have no way of knowing how long it will 
take. That will depend upon how soon we can get the records 
that we need and how soon we can get in touch with employees to 
conduct interviews.
    Mr. Kucinich. How many complaints do you have against ECC?
    Ms. Hicks. I do not know.
    Mr. Kucinich. How many complaints do you have against Mr. 
Reed?
    Ms. Hicks. Mr.?
    Mr. Kucinich. Reed.
    Ms. Hicks. I am not familiar with that name.
    Mr. Kucinich. The Reed case that involved Mr. Steele, was 
it? I'm sorry, it was Matt Redd, the head of Louisiana Labor 
LLC. Are you familiar with him?
    Ms. Hicks. I am familiar, yes.
    Mr. Kucinich. And let us talk about that for a second. He 
is the head of Louisiana Labor LLC. According to news clippings 
and witness testimony, we understand that guest workers 
attempted a citizens' arrest of Mr. Redd on February 15, 2007 
for his abuse of the workers which included Fair Labor 
Standards Act violations. And the workers who are members of 
the Alliance of Guest Workers for Dignity protested in front of 
your offices on March 13, 2007, so you would investigate Matt 
Redd for possible FLSA violations.
    At our June 26th hearing, more than 7 months after your 
office had notice that Mr. Redd might be a FLSA offender and 6 
months after the workers protested in front of your offices, it 
is this committee's understanding that nothing has been done 
with respect to Mr. Redd's alleged illegalities. Is that true?
    Ms. Hicks. No, that is not true.
    Mr. Kucinich. Well, what have you done to date?
    Ms. Hicks. Because it is an open investigation, I am not at 
liberty to discuss it.
    Mr. Kucinich. Well, you know, did you open up an 
investigation after the June 26th hearing?
    Ms. Hicks. We opened one, I am not sure about the date.
    Mr. Kucinich. Did you open up that case before or after 
March 13, 2007?
    Ms. Hicks. It would have been after March.
    Mr. Kucinich. Was it before or after the June 26th hearing?
    Ms. Hicks. That I do not know, I do not remember.
    Mr. Kucinich. I want you to provide this committee, if you 
would, with information about when the case opened. That is not 
privileged, that is something that----
    Ms. Hicks. I will be glad to get that information for you.
    Mr. Kucinich. See, what is interesting--I want to look at 
that case again because 7 months after your office had notice 
that Mr. Redd may be a Fair Labor Standards Act violator, 6 
months after workers protested in front of your office, you 
still have not been able to produce anything for the record 
about anything being done. Now I am going to have to take note 
that in the absence of you producing any information to this 
committee, that there is an open question here about whether or 
not the labor law is being enforced. You made a pretty broad 
statement to this subcommittee, Ms. Hicks, that labor law is 
being enforced here. We have heard extensive testimony that it 
is not and we still do not have a definition about the Redd 
case, a pretty egregious example of citizens having to get the 
attention of the New Orleans office by picketing it and also 
having to have a congressional hearing to call to the 
attention--this is the second time. It is now the end of 
October 2007--July, August, September, October, 4 months.
    Are you familiar with Mr. Redd?
    Ms. Hicks. I am not familiar--what do you mean by am I 
familiar?
    Mr. Kucinich. Do you know him?
    Ms. Hicks. No, I do not know Mr. Redd.
    Mr. Kucinich. Has anybody in your office been directed to 
talk to him?
    Ms. Hicks. Yes.
    Mr. Kucinich. Do you know if they have interviewed him?
    Ms. Hicks. Yes.
    Mr. Kucinich. Are you familiar with the people who have 
said that Mr. Redd has committed a violation of the Fair Labor 
Standards Act?
    Ms. Hicks. I am familiar with that allegation.
    Mr. Kucinich. Have you interviewed any of them?
    Ms. Hicks. I am sorry?
    Mr. Kucinich. Has your office interviewed them?
    Ms. Hicks. I need to retract that because I am not sure 
that any of them indicated that there was a violation of the 
Fair Labor Standards Act when they contacted us.
    Mr. Kucinich. So you are saying you have not made a 
determination yet as to whether the Fair Labor Standards Act 
has been violated?
    Ms. Hicks. No, we have made a determination. What I am 
saying is I cannot discuss it.
    Mr. Kucinich. What can you tell the people who testified on 
the previous panels about what you are doing to try to address 
the issues that they have brought before this subcommittee?
    Ms. Hicks. Are you referring to the----
    Mr. Kucinich. The witnesses who have said--in the two 
panels previous to you. Were you here for both of them?
    Ms. Hicks. Yes, sir, I was.
    Mr. Kucinich. You heard their testimony.
    Ms. Hicks. Yes.
    Mr. Kucinich. What can you tell people generally about the 
complaints that they have about not being paid? What can you 
tell them about what your office is going to do for them?
    Ms. Hicks. We are going to continue to work their 
complaints where they have provided information. The workers 
who testified about guest worker problems, we do not have 
jurisdiction there, so I cannot promise anything there.
    Mr. Kucinich. Now in conversations with my staff, Ms. 
Hicks, you said that personal hardship among the investigators 
in the aftermath of the hurricanes, in addition to an 
unprecedented number of subcontracts and influx of workers has 
made the DOL's mandate extremely difficult to fulfill. Is your 
office still struggling to meet the needs of the worker 
community in the Gulf Coast?
    Ms. Hicks. We are struggling because it is a lot of work.
    Mr. Kucinich. Do you have enough people?
    Ms. Hicks. Yes, we do have enough people.
    Mr. Kucinich. You are sure of that?
    Ms. Hicks. Yes, I believe we do.
    Mr. Kucinich. You do not need more. You can handle your 
caseload right now with all the people you have.
    Ms. Hicks. Including those that are detailed in and are 
still being detailed in. In fact, right now we have details.
    Mr. Kucinich. Do not need any additional resources from 
Washington?
    Ms. Hicks. No, sir, right now, we have everything that we 
need.
    Mr. Kucinich. Now Mr. DeCamp in his testimony said that the 
Department of Labor is significantly underfunded in 2007, and I 
am quoting him in saying that ``The continuing resolution 
really hurts our hiring efforts frankly, and made it difficult 
to replace even retiring staff''----
    Ms. Hicks. Excuse me, I am sorry, but this is really 
annoying, the talking behind me and I am having trouble 
blocking out that and listening to you.
    Mr. Horowitz. I am translating----
    Mr. Kucinich. OK, you know what, I would ask in deference--
I can understand that. Do you want to move a few seats over? We 
just have a few more minutes here, if you just want to move so 
she can focus on what she has to say. That is fair.
    Ms. Hicks. Thank you.
    Mr. Kucinich. That is OK, that is fair, we want to make 
sure you can hear.
    I was quoting from Mr. DeCamp and he is talking about the 
Department of Labor, saying ``It is significantly underfunded 
in 2007. Continuing resolution really hurt our hiring efforts, 
made it difficult to replace even retiring staff. We need more 
resources,'' he said. ``We have asked for them in the pending 
budget request.'' This is Mr. DeCamp.
    Ms. Hicks, your statement seems to be at odds with Mr. 
DeCamp's belief that you cannot afford all the resources 
necessary, that you have had a hard time replacing your staff. 
How do you reconcile your answer with his statements?
    Ms. Hicks. I reconcile that by stating that Mr. DeCamp 
addressed Wage and Hour as a whole, the entire country, all of 
our offices. With respect to New Orleans, there have been no 
resources that we have asked for and not gotten, because of 
Hurricane Katrina and because of the massive work that was 
there.
    Mr. Kucinich. Are there any resources that you wanted to 
ask for and you did not?
    Ms. Hicks. No, sir, I asked for--everything we needed, we 
asked for it.
    Mr. Kucinich. According to our records, the last 
Portuguese-speaking investigator worked with your office in 
December 2006. Our records also indicate there exists a 
significant Portuguese-speaking worker population in the Gulf 
Coast. Have you hired any new Portuguese-speaking investigators 
to meet the needs of the worker population?
    Ms. Hicks. No, we have not.
    Mr. Kucinich. Do you feel that you could benefit from such 
investigators?
    Ms. Hicks. I believe we could benefit from them.
    Mr. Kucinich. So then are you underfunded, or are you not?
    Ms. Hicks. It is difficult to answer that question because 
I can repeat that I have gotten all of the resources that we 
have asked for. So presumably there is funding there for it.
    Mr. Kucinich. Do you ask for what you need? I mean you are 
head of the office there, do you let them know what you need?
    Ms. Hicks. I do, I do.
    Mr. Kucinich. Did you make a request for Portuguese-
speaking persons?
    Ms. Hicks. No, I did not.
    Mr. Kucinich. Why not?
    Ms. Hicks. Because we have Portuguese speakers at our 
disposal. Whenever we need a Portuguese speaker, I can get one 
from one of the other offices.
    Mr. Kucinich. Our committee has a letter from the Southern 
Poverty Law Center that describes their frustrations with the 
Department of Labor's District Office representation of workers 
in the cases involving Paul Davis National and ITT, Inc. Now 
their letter included the following critiques: (a) Department 
of Labor investigator did not clearly communicate with his 
clients regarding the agency and its investigation; (b) The 
investigator never discussed the settlement or how it was 
calculated with workers; (c) Without communicating with the 
workers, the investigator sent settlement checks to a Florida 
address even though many of the workers do not reside in 
Florida and the Florida office did not have the capacity to 
communicate with the workers in Portuguese; and (d) In addition 
to this, the workers were asked to sign claims waiver forms in 
Spanish, which most of the workers could not read nor speak.
    What do you have to say about these critiques?
    Ms. Hicks. The forms that the workers signed, I am not sure 
what language they were in, but those were--the purpose of that 
is to verify that these workers were paid. And because those 
checks were distributed by the Wage and Hour Division, we knew 
that they were paid.
    Mr. Kucinich. This committee is going to submit to you 
written questions as a followup to this and we will ask for 
your cooperation. We are going to continue to track the cases.
    We just have a few more questions. The Department of Labor 
is now drafting regulations that, according to the Department 
of Homeland Security, will streamline the certification 
process, making the environment more susceptible to fraud, 
hurting not only migrant workers, but domestic workers as well. 
We understand from our witnesses that H2-B employer violations 
and charges of fraud are already abundant. How many complaints 
have you received from the non-agricultural guest worker 
population alleging that their H2-B employers are abusing them 
or violating their contracts, such as we have heard today?
    Ms. Hicks. Because we do not have jurisdiction with those 
regulations, we have not received any complaints.
    Mr. Kucinich. OK, although you do not have authority to 
hold H2-B employers accountable for violating their H2-B 
contracts, you do have the authority to refer these fraud cases 
to the Department of Labor Office of Inspector General, and to 
refer employer violations to Department of Homeland Security. 
How many fraud cases have you referred to the Office of 
Inspector General?
    Ms. Hicks. I am not aware of any fraud cases----
    Mr. Kucinich. How many cases of the H2-B employer abuse 
have you referred to the Department of Homeland Security?
    Ms. Hicks. I have not referred any that I know of.
    Mr. Kucinich. But you can refer cases of inadequate housing 
conditions to the Federal Housing Authority. How many cases of 
inadequate living conditions have you referred to Federal 
Housing Authority?
    Ms. Hicks. None.
    Mr. Kucinich. Ms. Hicks, it seems as though protecting 
guest workers is a very difficult task because their labor law 
violations cannot be addressed by a single Federal authority, 
unlike their guest worker counterparts. In your opinion, would 
you be able to better protect guest workers if you had the 
authority to do so as opposed to the existing system in which 
fraud is referred to the OIG and employer violations are 
referred to the DHS and housing conditions stipulated in the 
H2-B contracts are referred to Federal Housing Authority?
    Ms. Hicks. I am not quite sure I understood the question, 
sir.
    Mr. Kucinich. Would it be easier for you to protect guest 
workers if you had the authority to do so?
    Ms. Hicks. If we had the authority to do so, we would step 
up to the plate.
    Mr. Kucinich. Would it be better for you to have that 
authority, do you think, than the fragmented condition that we 
have right now?
    Ms. Hicks. No, it would not necessarily be better for us to 
have that.
    Mr. Kucinich. Well, you explained that you and all your 
staff were personally affected by the hurricanes, certainly 
these hardships have created a backlog. What have you done 
differently to address this backlog? And is it not likely that 
the statute will run, that the bubble will pop before you ever 
catch up?
    Ms. Hicks. If you are talking about complaints, we are on 
top of our complaint backlog. We have not gotten that many 
complaints. The bubble popping, I am assuming you are referring 
to the statute running out and if complainants come to us prior 
to that happening, then we will take the complaint and work it. 
If the statute is running, it is given, you know, top priority.
    Mr. Kucinich. Would you benefit from more time?
    Ms. Hicks. On the Fair Labor Standards Act? Generally, we 
are able to complete our Fair Labor Standards Act prior to the 
statute running.
    Mr. Kucinich. You know, I have to say, and I am saying this 
on behalf of the people who have testified here today, workers, 
and the thousands who did not, that I am perplexed by your 
testimony today. And, you know, we have people who presented 
information indicating that they cannot get a resolution to 
their case, some of which involve more than a year of back 
wages of being underpaid and having contractors and 
subcontractors who are giving them the run-around, or who are 
openly discriminating against them. I just do not see that the 
kind of enforcement that you claim exists is present, because 
frankly, if it was, I would not have had two hearings about 
this already.
    We are going to have to look into this a little bit deeper. 
We may have to--we may need to invite you to Washington. We 
need to have a discussion more with the Department of Labor 
because something is not squaring here. Either you do not have 
the resources you need and you are not able to cover these 
cases or you do have the resources you need and there is some 
other reason why we have people here who are not getting 
satisfied. As long as there are workers here whose cases have 
not been resolved and they represent a broad-based ignoring of 
concerns of potentially thousands of people, this committee is 
going to have to stay engaged.
    Now you can only speak confidently about the claims that 
you know about, but you cannot say about innumerable claims 
like Mr. Hernandez, about whose you have not even heard. So I 
like to conclude these hearings with a feeling of resolution, 
but we are going to have to keep this file open, we are going 
to continue to ask questions of your office. I imagine that it 
has been very tough for you in a lot of ways in try to get a 
staff together and keep it working in the wake of the 
hurricanes because it affected your people as well. But the 
hurricane was 2 years ago and if there was a problem in 
staffing up or in meeting the needs, you have just told us that 
you have the people that you need. We have a lot of cases that 
are still open. Something is wrong here and we are going to 
stay on it until everything is right.
    So I want to thank all the witnesses here and let you know 
that we will continue. This hearing stands adjourned.
    [Whereupon, at 12:52 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
